<html>
<title> - POST-KATRINA: WHAT IT TAKES TO CUT THE BUREAUCRACY AND ASSURE A MORE RAPID RESPONSE AFTER A CATASTROPHIC DISASTER</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]



 
           POST-KATRINA: WHAT IT TAKES TO CUT THE BUREAUCRACY
                        AND ASSURE A MORE RAPID
                            RESPONSE AFTER A
                         CATASTROPHIC DISASTER

=======================================================================

                                (111-53)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
    ECONOMIC DEVELOPMENT, PUBLIC BUILDINGS, AND EMERGENCY MANAGEMENT

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                             July 27, 2009

                               __________

                       Printed for the use of the
             Committee on Transportation and Infrastructure



                  U.S. GOVERNMENT PRINTING OFFICE
51-326                    WASHINGTON : 2009
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                 JAMES L. OBERSTAR, Minnesota, Chairman

NICK J. RAHALL, II, West Virginia,   JOHN L. MICA, Florida
Vice Chair                           DON YOUNG, Alaska
PETER A. DeFAZIO, Oregon             THOMAS E. PETRI, Wisconsin
JERRY F. COSTELLO, Illinois          HOWARD COBLE, North Carolina
ELEANOR HOLMES NORTON, District of   JOHN J. DUNCAN, Jr., Tennessee
Columbia                             VERNON J. EHLERS, Michigan
JERROLD NADLER, New York             FRANK A. LoBIONDO, New Jersey
CORRINE BROWN, Florida               JERRY MORAN, Kansas
BOB FILNER, California               GARY G. MILLER, California
EDDIE BERNICE JOHNSON, Texas         HENRY E. BROWN, Jr., South 
GENE TAYLOR, Mississippi             Carolina
ELIJAH E. CUMMINGS, Maryland         TIMOTHY V. JOHNSON, Illinois
LEONARD L. BOSWELL, Iowa             TODD RUSSELL PLATTS, Pennsylvania
TIM HOLDEN, Pennsylvania             SAM GRAVES, Missouri
BRIAN BAIRD, Washington              BILL SHUSTER, Pennsylvania
RICK LARSEN, Washington              JOHN BOOZMAN, Arkansas
MICHAEL E. CAPUANO, Massachusetts    SHELLEY MOORE CAPITO, West 
TIMOTHY H. BISHOP, New York          Virginia
MICHAEL H. MICHAUD, Maine            JIM GERLACH, Pennsylvania
RUSS CARNAHAN, Missouri              MARIO DIAZ-BALART, Florida
GRACE F. NAPOLITANO, California      CHARLES W. DENT, Pennsylvania
DANIEL LIPINSKI, Illinois            CONNIE MACK, Florida
MAZIE K. HIRONO, Hawaii              LYNN A WESTMORELAND, Georgia
JASON ALTMIRE, Pennsylvania          JEAN SCHMIDT, Ohio
TIMOTHY J. WALZ, Minnesota           CANDICE S. MILLER, Michigan
HEATH SHULER, North Carolina         MARY FALLIN, Oklahoma
MICHAEL A. ARCURI, New York          VERN BUCHANAN, Florida
HARRY E. MITCHELL, Arizona           ROBERT E. LATTA, Ohio
CHRISTOPHER P. CARNEY, Pennsylvania  BRETT GUTHRIE, Kentucky
JOHN J. HALL, New York               ANH ``JOSEPH'' CAO, Louisiana
STEVE KAGEN, Wisconsin               AARON SCHOCK, Illinois
STEVE COHEN, Tennessee               PETE OLSON, Texas
LAURA A. RICHARDSON, California
ALBIO SIRES, New Jersey
DONNA F. EDWARDS, Maryland
SOLOMON P. ORTIZ, Texas
PHIL HARE, Illinois
JOHN A. BOCCIERI, Ohio
MARK H. SCHAUER, Michigan
BETSY MARKEY, Colorado
PARKER GRIFFITH, Alabama
MICHAEL E. McMAHON, New York
THOMAS S. P. PERRIELLO, Virginia
DINA TITUS, Nevada
HARRY TEAGUE, New Mexico
VACANCY

                                  (ii)



 Subcommittee on Economic Development, Public Buildings, and Emergency 
                               Management

           ELEANOR HOLMES NORTON, District of Columbia, Chair

BETSY MARKEY, Colorado               MARIO DIAZ-BALART, Florida
MICHAEL H. MICHAUD, Maine            TIMOTHY V. JOHNSON, Illinois
HEATH SHULER, North Carolina         SAM GRAVES, Missouri
PARKER GRIFFITH, Alabama             SHELLEY MOORE CAPITO, West 
RUSS CARNAHAN, Missouri              Virginia
TIMOTHY J. WALZ, Minnesota           MARY FALLIN, Oklahoma
MICHAEL A. ARCURI, New York          BRETT GUTHRIE, Kentucky
CHRISTOPHER P. CARNEY,               ANH ``JOSEPH'' CAO, Louisiana
Pennsylvania, Vice Chair             PETE OLSON, Texas
DONNA F. EDWARDS, Maryland
THOMAS S. P. PERRIELLO, Virginia
JAMES L. OBERSTAR, Minnesota
  (Ex Officio)

                                 (iii)

                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................    00

                               TESTIMONY

Becker, Joe, Senior Vice President, Disaster Services, American 
  Red Cross......................................................    00
Bullock, Jane, Principal, Bullock & Haddow, LLC, Former FEMA 
  Chief of Staff.................................................    00
Decker, Russ, President, International Association of Emergency 
  Managers.......................................................    00
Dunbar, Donald P., Adjutant General, State of Wisconsin, on 
  behalf of the National Governors Association...................    00
Fugate, Craig, Administrator, Federal Emergency Management Agency    00
Loebsack, Hon. David, a Representative in Congress from the State 
  of Iowa........................................................    00
Maxwell, David, Vice President, National Emergency Management 
  Association....................................................    00
McCarthy, Francis X., Analyst, Congressional Research Service....    00
Moss, Mitchell, Henry Hart Rice Professor of Urban Policy and 
  Planning, New York University..................................    00

          PREPARED STATEMENT SUBMITTED BY A MEMBER OF CONGRESS

Carnahan, Hon. Russ, of Missouri.................................    00
Loebsack, Hon. David, of Iowa....................................    00
Norton, Hon. Eleanor Holmes, of the District of Columbia.........    00
Oberstar, Hon. James L., of Minnesota............................    00

               PREPARED STATEMENTS SUBMITTED BY WITNESSES

Becker, Joe......................................................    00
Bullock, Jane....................................................    00
Decker, Russ.....................................................    00
Dunbar, Donald P.................................................    00
Fugate, Craig....................................................    00
Maxwell, David...................................................    00
McCarthy, Francis X..............................................    00
Moss, Mitchell...................................................    00

                       SUBMISSIONS FOR THE RECORD

Becker, Joe, Senior Vice President, Disaster Services, American 
  Red Cross, responses to questions from the Subcommittee........    00
Bullock, Jane, Principal, Bullock & Haddow, LLC, Former FEMA 
  Chief of Staff, responses to questions from the Subcommittee...    00
Decker, Russ, President, International Association of Emergency 
  Managers, responses to questions from the Subcommittee.........    00
Fugate, Craig, Administrator, Federal Emergency Management 
  Agency, responses to questions from Rep. Norton, a 
  Representative in Congress from the District of Columbia.......    00
Maxwell, David, Vice President, National Emergency Management 
  Association, responses to questions from the Subcommittee......    00
McCarthy, Francis X., Analyst, Congressional Research Service, 
  responses to questions from Rep. Norton, a Representative in 
  Congress from the District of Columbia.........................    00
[GRAPHIC] [TIFF OMITTED] T1326.001

[GRAPHIC] [TIFF OMITTED] 51326.002

[GRAPHIC] [TIFF OMITTED] 51326.003

[GRAPHIC] [TIFF OMITTED] 51326.004

[GRAPHIC] [TIFF OMITTED] 51326.005

[GRAPHIC] [TIFF OMITTED] 51326.006

[GRAPHIC] [TIFF OMITTED] 51326.007



 POST-KATRINA: WHAT IT TAKES TO CUT THE BUREAUCRACY AND ASSURE A MORE 
              RAPID RESPONSE AFTER A CATASTROPHIC DISASTER

                              ----------                              


                         Monday, July 27, 2009

                  House of Representatives,
              Subcommittee on Economic Development,
                 Public Buildings and Emergency Management,
                    Committee on Transportation and Infrastructure,
        Washington, DC.
    The Subcommittee met, pursuant to call, at 2:20 p.m., in 
Room 2167, Rayburn House Office Building, Hon. Eleanor Holmes 
Norton [Chair of the Subcommittee] presiding.
    Ms. Norton. I apologize that I was detained, because this 
is a hearing of some considerable importance to the 
Subcommittee. It is not about any disaster that we have seen 
except 9/11 and Katrina. So it looks to the future in a way 
that perhaps we should have done for Katrina, except that 
Katrina was such an unimaginable event that it did not occur to 
anyone, I believe, to think of such a gargantuan matter.
    For today's hearing, we will address the very important new 
and unresolved questions that Hurricane Katrina raised for our 
country for the first time: What is a catastrophic disaster? 
Note that word: "catastrophic disaster." Think of it as a new 
invention. We haven't used that word before. What is the role 
of the Federal Government before, during and after these 
events? Is additional authority needed to address response and 
recovery from these events?
    We cannot sit by and really hope that outsized disasters 
such as Hurricane Katrina and 9/11 will never occur again. Our 
obligation to the public requires investigation by this 
Subcommittee to prepare us for the possibility of these 
contingencies.
    Hurricane Katrina made landfall August 29, 2005, and proved 
to be the most costly natural disaster in American history. 
Congress, and particularly this Subcommittee, have spent the 
nearly 4 years since Katrina looking at the action of the 
Federal Government, as well as State and local governments, 
voluntary agencies and citizens themselves, from response to 
recovery, which continues to this day, on the Gulf Coast.
    Today's hearing focuses on the next steps. What did we 
learn from Hurricane Katrina, as well as from other disasters 
in the United States and around the world, concerning what 
should be done to respond to catastrophic disasters and to 
facilitate recovery? Most important, what steps should all 
concerned be taking now to prepare for and mitigate the risks 
to lives and property from these events?
    The Robert T. Stafford Disaster Relief and Emergency 
Assistance Act, or Stafford Act, was signed into law November 
23, 1988, but it is not clear that Congress contemplated 
gargantuan disasters with recovery proceeding for years. The 
act authorized by our Committee is the Federal Government's 
primary authority for addressing major disasters, from all 
hazards and events. For the most part, this authority has 
proven sufficient to address all types of disasters and 
emergencies, but it is an open question whether the Stafford 
Act is sufficient when measured against the background 
Hurricane Katrina now provides.
    The Stafford Act and our Nation's emergency management 
system are grounded in our Federal system of government that 
recognizes that the primary responsibility to address disasters 
and emergencies resides with States and communities, not the 
Federal Government. As a result, the assistance provided after 
a disaster is as the Stafford Act provides to, and I'm quoting 
here, ``supplement, supplement the efforts and available 
resources of States, local governments, and disaster relief 
organizations." However, it is already clear that one 
characteristic that distinguishes catastrophic disasters from 
other disasters is that the magnitude of a huge disaster often 
has national impact, national impact, impact beyond the seat of 
the disaster, rather than effects limited largely to a 
particular State or community. We must therefore reevaluate the 
role of the Federal Government as well as FEMA's authorities, 
policies, and regulations that presume Federal assistance is 
always supplemental, regardless of the disaster.
    The Stafford Act existing authority and systems for the 
emergencies and disasters that the country faces are so 
detailed and time-proven that this landmark statute provides 
the necessary base for additions or revision if needed. However 
defined, Katrina teaches that catastrophic disasters are 
complex, unusually large in effects, hard to predict and 
expensive. Moreover, they are distinguishable. Distinguishable 
because they require months, rather than days or weeks, months 
indeed, and probably years rather than days or weeks, to move 
from response to recovery. Inevitably, therefore, the 
Subcommittee cannot avoid the question whether new 
extraordinary authority should be given to the President of the 
United States in advance, and whether Congress should provide 
for the recovery from catastrophic disasters that is specific 
and targeted to the size of these unusually large and pervasive 
events.
    The Subcommittee looks forward to hearing the testimony of 
today's witnesses to help us address how we can prepare for 
these catastrophic events. We particularly welcome 
Administrator Fugate, who has recently taken office and is 
testifying before this Committee for the first time.
    Ms. Norton. I am pleased to ask our Ranking Member Mr. 
Diaz-Balart if he has any opening remarks.
    Mr. Diaz-Balart. Thank you very much, Madam Chairwoman, and 
actually I want to thank you for holding this important 
hearing; and obviously for the witnesses, as always, for their 
contributions and their expert testimony. It is good to see 
you, sir.
    I also want to welcome, Madam Chairwoman, Administrator 
Fugate in his first hearing before this Committee in his new 
position. Now, he has been doing this kind of thing before, at 
a different level, and I am actually very excited that now he 
is doing it here at the Federal level.
    After Hurricane Katrina, Congress made it very clear that 
we needed a FEMA Administrator who knows what he is doing and 
has the authority to get the job done. And the President, I 
think, found the best person in the country, a person who knows 
what he is doing, who has, I guess unfortunately, a lot of 
experience dealing with large and small emergencies. And again, 
I have tremendous confidence in Mr. Fugate. I am really looking 
forward to continuing working with him, and hopefully he will 
not be too busy. That is something we are obviously all hoping 
for.
    I also need to acknowledge the tremendous work that 
Congressman Cao has done to speed the recovery funding in 
Louisiana. We still have issues after that storm. He has held 
several roundtables with FEMA, with State and local officials, 
and with Members of Congress. I have been involved in some of 
them. Frankly, he has helped free up hundreds of millions of 
dollars for those stricken by Katrina. He has also been 
working, Madam Chairwoman, closely with the experts such as the 
witness today, Mr. McCarthy of the Congressional Research 
Service, on possible changes and recommendations to the 
Stafford Act. I believe many of the options that Mr. McCarthy 
will be presenting to the Committee for reforming the Stafford 
Act are, frankly, a direct result of Congress Cao's efforts, 
and again I thank him for his aggressive involvement with this 
Committee and these important issues. Thank you, sir.
    Now, obviously, as the Chairwoman said, Katrina was a 
horrible, huge, devastating hurricane. Unfortunately, as we 
know, it is very unlikely that this will be the largest one 
that hits us or the most--the largest catastrophe, the most 
damaging one that hits our country. A Category 5 hurricane in 
south Florida could come at any moment, or an 8.0 earthquake in 
California, or a pandemic flu. We keep hearing about pandemic 
flus right now. All those are possibilities that could hit us 
at any time.
    So while disasters obviously that large would stress the 
entire emergency management system, I want to focus on a few 
important areas that I think are of the most concern. There 
needs to be obviously a clear, Federal chain of command, and 
that is essential during a catastrophic disaster. And it can be 
a critical point of failure, as we saw during Katrina. I have 
mentioned this before, as I mentioned it earlier as well.
    You know, Congress changed the law to ensure that the 
Nation has a qualified FEMA Administrator who really knows what 
he is doing, who would coordinate the Federal response on 
behalf of the President. Now, unfortunately, the President has 
yet to update the Presidential Directive on Incident 
Management, which is HSPD 5, to reflect this change. And DHS 
has built a duplicate incident management organization outside 
of FEMA. And Congress continuously tries to defund--I will get 
into that later.
    So as I recall, the entire reason FEMA had to be within 
DHS, that is what we were told, was so that we could use FEMA 
to manage the response. DHS and the government could use FEMA 
to manage the response to a terrorist attack. And yet for the 
last few years, DHS has built a parallel incident command 
structure that bypasses FEMA. Again, makes no sense.
    Now, as a result, it is, frankly, not clear to me or to 
some of the witnesses--of our witnesses who will be in charge, 
those who will be in charge to coordinate the Federal response 
until the Secretary decides to appoint a Principal Federal 
Officer known as a PFO during a disaster. Who would be in 
charge, FEMA or this outside PFO? This confusion, frankly, is a 
recipe for failure.
    And also another thing, Madam Chairwoman. The Department 
needs to follow the law. And I know you have been writing 
letters to the President on this.
    Another critical issue I hope that we can address is the 
role of Department of Defense. Now, during a megadisaster, 
Department of Defense forces will be needed quickly. And I 
understand that there is an effort--well first, obviously, what 
is the effort of DOD? They need to be there, available quickly, 
and we saw how well they responded during Katrina. And they 
have to be well coordinated with FEMA, and they also have to be 
in a supporting role to the States. States, when they run out 
of resources, that is when you need DOD to come in, and, if it 
is a big disaster, to come in big.
    I understand the Department of Defense is recommending a 
change in the way we respond to disaster, and I have also heard 
that that change, that potential change, has caused, frankly, 
considerable concern among a number of Governors, and I have to 
admit that I share many of the Governors' concerns. And so I 
hope that we can talk about that.
    Another critical failure, and this is something that the 
Chairwoman has brought up many times--matter of fact, we had a 
hearing in south Florida, and you brought that up, Madam 
Chairwoman--to deal with the housing issue, what to do with the 
500,000 or over 1 million families forced out of their homes by 
one of these horrible catastrophic disasters. Despite the 
release of a natural disaster housing strategy, there is still 
no clear solution to addressing the housing issue at that 
scale.
    Now, I do need to commend FEMA for--I read that they are 
looking at other options, thinking outside the box, even 
looking at the possibility of in some cases using homes that 
may be under foreclosure. So I commend FEMA for thinking 
outside the box. But, again, we need to make sure that we have 
a strategy for the big storm or the big event if it comes or 
when it comes.
    Mitigation and preparation are other issues that must be 
examined and clearly improved. Earlier this year I introduced 
the Integrated Public Alert and Warning System Modernization 
Act, along with Chairwoman Norton and Representatives Cao, 
Guthrie and Graves of this Subcommittee. I also introduced a 
Safe Building Code Incentive Act. Both of these bills are 
intended to help prepare for a big storm and to mitigate 
against disasters. Providing incentives for States to enact 
building codes is, frankly, a very effective, commonsense way 
to minimize damage and the loss of life that a catastrophic 
disaster could entail, and we have seen that it does work. And 
developing a truly integrated public alert warning system is 
obviously critical to saving lives.
    Now, with countless methods of communication available 
today, Twitter, Facebook, e-mail, et cetera, et cetera, we are 
still using a 1950s model, which is the little beep that we 
hear on our TVs and our radios, and that is frankly it. Well, 
that is not enough, because there are more ways to communicate, 
and we need to do that.
    So the issue that I have raised impacts disasters of all 
sizes, but the big one, the catastrophic disasters, magnify 
obviously their significance and their importance. So it is 
important for us today to determine if the current framework 
for energy management is adequate for, again, catastrophic 
disasters, or should there be some more capabilities and 
flexibility built into the system. So again I hope that we will 
hear from our witnesses today on these and other issues.
    I want to thank you, Madam Chairwoman, for convening this 
meeting. Again, it is one of the issues that means a lot to all 
of us, but particularly those of us who live in States that are 
prone to disasters. Thank you.
    Ms. Norton. Thank you very much, Mr. Diaz-Balart. You raise 
some other salient questions that have been before us.
    Mr. Cao, do you have any opening statements?
    Mr. Cao. Madam Chair, first of all, on behalf of my 
constituents, I would like to thank the Chairwoman and Ranking 
Member for holding this important hearing today and for their 
sustained attention to the recovery of Orleans and Jefferson 
Parishes. I also appreciate their recognizing the significant 
challenges to recovery presented by certain aspects of the 
Stafford Act.
    And when we are talking about the Stafford Act, one of the 
questions that we are exploring today is whether we should 
create under the act a separate incident level for catastrophic 
events. And to help us clarify what these terms may imply, I 
would like to tell you what Katrina did to my district.
    Many of the critical institutions like charity hospitals 
and basically the entire health care infrastructures in hardest 
hit New Orleans East have never reopened. Other basic services 
like police, fire and rescue, libraries and schools were wiped 
away by the floodwaters and are simply today padlocked shells 
of buildings. In the immediate area around New Orleans, 80 
percent of the buildings and 40 percent of the housing stock 
were damaged in some way. In my mind and in the mind of my 
constituents, what Katrina did to the Gulf Coast and to Orleans 
and Jefferson Parishes was, without a doubt, a catastrophe.
    After Katrina, I spent a significant amount of time talking 
to my constituents and also to Federal officials, with 
Administrator Fugate and with Mr. McCarthy, about what changes 
need to be made on the Stafford Act. We are taking a 
comprehensive relook at the Stafford Act and the regulations 
that support it. And I would seek your support, Madam 
Chairwoman and Mr. Ranking Member, in these efforts.
    The Stafford Act is currently set up to provide recovery 
dollars on a project-by-project basis. For Gulf Coast States 
that were hit by Hurricanes Katrina and Rita, this is not 
optimal due to the extent of destruction. The fact that we are 
nearly 4 years from these events, and the States and FEMA are 
still arguing over doorknobs and whether a building that was 
flooded, gutted and falling down was more or less than 50 
percent damaged demonstrates this.
    In catastrophic or megadisasters, the States and localities 
need to have the flexibility to rethink and replan their 
recovery and hazard-mitigation plans. They need to have the 
flexibility to decide whether rebuilding in the predisaster 
footprint is the best solution for the communities long term.
    What are some of the fixes that I hope to look at in 
regards to the Stafford Act? Legislatively, creating an 
incident level for catastrophes or megadisasters for which a 
wholistic look at the community's needs would be taken; the 
feasibility of lump-sum settlements in megadisasters like that 
which was legislated to respond to the disaster of September 
11; shifting more responsibility to and thereby incentivizing 
States and localities to prepare better for disasters, for 
example, tying building codes to the amount of recovery dollars 
ultimately provided by the Federal Government. This is 
something that the Ranking Member has been working on through 
legislation. And I am proud to support this, revising the 
management structure of FEMA and other agencies to shift 
decisionmaking from the upper level of management, where 
bottlenecks occurred, to the staffs on the ground and meeting 
with local government representatives on a daily basis.
    In the course of my conversations with the different 
parties, it has became abundantly clear to me that FEMA 
employees have been almost indoctrinated to believe that they 
are handcuffed by the Stafford Act and therefore can't come up 
with out-of-the-box solutions. When you have major disasters 
like Hurricane Katrina, we need creative thinking, but FEMA 
employees are allowing themselves to be mired in red tape, 
causing them to retreat from difficult questions and creative 
solutions by hiding behind the Stafford Act and what it does 
and does not allow.
    My reading of the Stafford Act is that it is an incredibly 
flexible piece of legislation that was always envisaged to 
provide a framework. The real problem is for decades FEMA has 
been layering regulations one on top of another, which is 
actually what is hampering FEMA employees. FEMA has restricted 
itself with inconsistent regulations so much so that they can't 
be a partner in communities' recovery, which is what they ought 
to be.
    I am hopeful that Secretary Napolitano and Administrator 
Fugate will the same sort of self-awakening about restrictions 
to FEMA, and that they will fundamentally rework the 
regulations hampering performance. However, I want to make it 
clear that if we don't see real progress in freeing up the 
creativity and proactive thinking of FEMA employees, we will 
draft legislations that require you to do so.
    With that, I am looking forward to your testimonies, and I 
hope to work with you further in the future to look at the 
Stafford Act and how we can improve the cooperations of FEMA 
with the State and local employees.
    Thank you very much, Madam Chair.
    Ms. Norton. Thank you, Mr. Cao.
    We are very pleased now to welcome our colleague, Mr. 
Loebsack of Iowa, who has remarks and testimony of his own. I 
am pleased to receive them at this time, Mr. Loebsack.

   TESTIMONY OF THE HON. DAVID LOEBSACK, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF IOWA

    Mr. Loebsack. I want to thank Chairwoman Norton, Ranking 
Member Diaz-Balart, Members of the Subcommittee for giving me 
the opportunity to testify today. I am not the expert. I am 
just a Congressman from the Second District of Iowa, an area 
where we had essentially our own Katrina in June of 2008. And 
it is really--this has just been wonderful for me at the outset 
here to listen to my colleagues.
    And, Mr. Cao, I really appreciate what you had to say, 
because while New Orleans is at the--you know, sort of at the 
end of the line, if you will, as far as the Mississippi River 
is concerned, and we are way up north, there are a lot of 
things that I think we have in common in terms of our thoughts 
about how to do this differently.
    And I do want to say at the outset that I think FEMA did a 
pretty darn good job in Iowa and has done a good job, but there 
are a lot of things that obviously can be changed. So I am 
looking forward to working with you folks in the future as to 
how we can change things.
    And I also want to say at the outset, too, that I said 
throughout when this first happened to Iowa in June of 2008, 
there is nothing partisan about catastrophes. It doesn't matter 
whether you are Republican or Democrat, you are going to get 
hit by a catastrophe. And working together, I think, in a 
bipartisan way is really absolutely critical. So that is what I 
am looking forward to doing as well.
    Our flood in Iowa was truly a 500-year flood; 85 of the 99 
counties were Presidentially declared disaster areas and 
represented about 85 percent of the entire State. Some of the 
hardest hit areas were in my district: Cedar Rapids, Iowa City, 
the small town of Oakville, Coralville and Columbus Junction. 
It is estimated that Cedar Rapids alone has nearly $5.6 billion 
in recovery needs. That is right. One city of 120,000 or so in 
Iowa, $5.6 billion in recovery needs.
    With this in mind, then, consider that about $3 billion has 
been allocated to the entire State of Iowa for disaster 
recovery, which includes a large amount of State funds, even 
though damage statewide early on was estimated at about $10 
billion.
    When considering what constitutes a catastrophic disaster, 
one indicator which may be useful to consider would be the 
damages relative to community or State budgets and resources. 
The State of Iowa had receipts for fiscal year 2009 of around 
$6.9 billion compared to the estimated $10 billion in statewide 
damage. And the City of Cedar Rapids had a budget for fiscal 
year 2009 of nearly $380 million. And keep that in mind when 
you think about the $5.6 billion in needs.
    And then to further bring the magnitude of this disaster in 
perspective, when calculating estimated damage through FEMA's 
Public Assistance Program, the Iowa floods alone rank as the 
fifth largest disaster in U.S. history. And if you take away 
nothing from my testimony besides the largesse, the 
significance of the widespread magnitude of this disaster, then 
I will have accomplished something. It is my job to keep this 
in the forefront of your minds and the minds of the American 
people.
    FEMA was not, of course, our only source of assistance. 
Many Federal programs, departments or agencies were mobilized 
and utilized during and after our disaster. FEMA, for example, 
agreed to lower the cost share to 10 percent for all of our 
public assistance categories and waive the cost share 
completely for others because we had to get waivers and 
extensions and changes to the current law that we had to work 
to put in place, and this was one example.
    In addition, the application periods for FEMA's individual 
assistance, disaster unemployment assistance and public 
assistance were extended. And numerous other waivers were 
granted through Federal--various Federal departments or 
agencies. I also worked with my colleagues in the last Congress 
to pass two supplemental disaster relief appropriations bills. 
The largest of these funds allocated to Iowa, $800 million, 
comes from the Community Development Block Grant Program 
through HUD.
    It is my understanding that effective use of CDBG funds 
after Hurricane Katrina continues to be an issue as well, and 
some mention was made of housing. CDBG funds are not 
traditionally used, as you all know, for disaster relief, and 
therefore, they are not ideally suited to be flexible enough, 
nimble enough. This is something that I heard from you folks, 
the need for nimbleness, if you will, to meet the immediate 
postdisaster recovery needs of States and communities.
    HUD Secretary Donovan stated during a visit to my district 
that the State of Iowa and the City of Cedar Rapids are models 
for efficiently utilizing CDBG funds for disaster recovery. I 
am proud of that distinction, but I do have to wonder why, at 
this point, the Federal Government is still looking for models 
of efficiency.
    I know it has not been an easy journey for my district, and 
the journey is far from over, but if Cedar Rapids in Iowa can 
provide examples of best practices for the future, then I look 
forward to working with Secretary Donovan, to all of you on 
this Committee, to those who are about to testify, to Mr. 
Fugate, and so we can deal more effectively and more 
efficiently with these issues when they arise with these 
catastrophic disasters.
    And perhaps I think maybe we should begin with a simple 
assumption, that we are going to be faced with catastrophes in 
the future. We have to just simply accept that fact. I know 
that in the past we have said that we knew that, but I think 
all of us who have been through these catastrophes wonder if, 
in fact, we really believe that they are going to happen again, 
because we need to be better prepared. There is no doubt about 
it.
    So thank you very much for allowing me to testify today. I 
real appreciate this opportunity. I am going to turn it over 
now to the experts, and I am looking forward to hearing what 
they have to say and reading their testimony and, as Mr. Cao 
said, continuing to work with our relevant administrators at 
the Federal levels. So thank you very much for the opportunity 
to testify today. Thank you.
    Ms. Norton. Thank you, Mr. Loebsack.
    You have introduced a new element, one I am not sure is 
unique, but certainly very much worth looking at, at the cost 
of the event versus the budget, although that is the annual 
budget of the State. So that is a matter we should look into as 
another element and see it if had been considered before.
    Are there any questions for Mr. Loebsack?
    Mr. Diaz-Balart.
    Mr. Diaz-Balart. Just a brief comment.
    It is interesting that you state that. Those of us who have 
gone through it become aware of it, of those catastrophes, and 
you are so right about making sure that we continue to remind 
people that this is going to happen. And it is not going to 
happen only in one part of the country, it is going to happen 
anywhere, any time. And your observation about the fact that 
the incidents are nonpartisan is so true.
    As well as I am very proud of, in particular this 
Committee, the response of Congress, and particularly this 
Committee has also been nonpartisan. But it is very important 
to always remember even in places like Florida where it has 
been a few years since we got hit by the big one, Andrew, which 
actually was not as big as we thought. It was huge, but a worse 
one could come. So you get complacent. So it is important to 
keep reminding us to not do that. So I thank you for bringing 
that up again. Thank you, sir.
    Ms. Norton. If that was the standard, it would be the 
budget of the State of Louisiana for decades, I am afraid. And 
that may be what we, in fact, end up paying because of the 
nature of the disaster.
    Thank you very much, Mr. Loebsack.
    Mr. Loebsack. Thank you for holding it.
    Ms. Norton. We are pleased now to welcome our first 
witness, Administrator Craig Fugate, who, of course, is the new 
Administrator of the Federal Emergency Management Agency 
itself, for his first appearance before our Subcommittee. 
Welcome, Mr. Fugate.

  TESTIMONY OF CRAIG FUGATE, ADMINISTRATOR, FEDERAL EMERGENCY 
                       MANAGEMENT AGENCY

    Mr. Fugate. Thank you, Chairwoman Norton, and Ranking 
Member Diaz-Balart and other Members of the Committee. It is an 
honor to be here before your Committee, ma'am, and talking 
about catastrophic disasters.
    So what is a "catastrophic disaster?" What definition do we 
use? Well, in the National Response Plan Framework, we define 
it as any natural manmade incident, including terrorism, that 
results in extraordinary levels of mass casualties, damage or 
disruption, severely affecting the population, infrastructure, 
environment, economy, national morale or government functions.
    Of course, if I am in a town of 100,000, and I have a 
catastrophic event, it may not be catastrophic to the overall 
system. So I oftentimes think when we talk "catastrophic," 
particularly at our level of FEMA, we are looking at those 
events that have national impacts versus those that may be very 
localized, that we can still respond with our normal process 
and resources to get in there quickly. So when we talk about 
catastrophe at FEMA, we are really talking about those events 
that are of such magnitude they take on a significance 
impacting our national ability to respond, recover and move on 
from those.
    In particular, I was interested in the conversation about 
Stafford Act and hearing both opening statements and questions 
as to the Stafford Act. One, it is an extremely flexible 
document, and it is quite capable of doing many things, yet 
what else do we need to do to make it more responsive?
    Madam Chair, I would first like to lay out how I am 
approaching this both in my confirmation process and in the 2 
months I have been there. I believe I am taking a three-tier 
approach, because obviously, until I have guidance from 
Congress on which way you want to proceed, the most immediate 
thing we can do is look at our policy internally and address 
that first. That is our first step.
    I have directed Beth Zimmerman, who has come on board to 
head our Disaster Assistance Directorate, which deals with 
those matters of individual assistance and public assistance, 
to look at our current policy and guidance to address those 
issues that are being brought up on "are we," "do that," 
limiting what we are able to do in a disaster.
    The second piece within looking at the rules, the Code of 
Federal Registry, CFR 44, which governs the rulemaking of the 
rules that we administer the Stafford Act under, and then look 
at the Stafford Act as a whole. But I think in our first steps 
is to really look at what we have in FEMA done as far as our 
policy guidance and make sure that it is not proscribing or 
preventing us from using the tools that the Stafford Act 
actually gave us to.
    When we talk about "catastrophic," I think, again, we 
oftentimes look in the past. I am looking towards the future 
and looking at some of the scenarios that we still face as a 
Nation, not only those that have occurred, but what are some of 
the other types of events that we could face, New Madrid, a 
California earthquake, a major hurricane again in the Gulf 
Coast of Florida, a hurricane that strikes Hawaii, and looking 
at developing plans based around what the impacts are.
    I think one of the challenges we have had in the emergency 
management is oftentimes we will plan to our capability and 
hope that the disaster is not any bigger. And what I have found 
over my history is that if you don't plan for the potential 
impacts and look at how your system is applied, you run with 
the false sense or the illusion that you are able to manage 
these events, but at the point of failure, you have 
catastrophic failure, not just a system that you need to 
expand.
    And I believe in partnerships. One of the things that I 
want to make clear is--and we talk about disaster response, 
particularly catastrophic disaster response--FEMA is not the 
team; FEMA is part of the team. Under the Federal system, we 
have to leverage and work as partners with our local, State, 
our Federal agencies, our private sector, volunteer faith-
based, community-based organizations and the public to build a 
team that can respond to these very large-scale events, some of 
which may reach the point on a national scale of being 
catastrophic.
    So to summarize, Stafford Act has a lot of tools in it, but 
we must first take a look at our and policy guidance which we 
are doing to determine what we can do within the scope of 
Stafford to address many of the concerns that have been raised 
both in previous disasters and the ones we are facing; two, 
building a team based upon what the consequences we are facing 
in some of these events are, and building that capability by 
leveraging all of the resources of the country, not just 
looking at FEMA; and third, finally, the understanding that in 
catastrophic disasters, we must not continue to look at the 
public as a liability, but look at them as a resource that we 
incorporate into our planning.
    Too often times I have run into challenges where we have, 
in many cases, written plans for what I call the easy-to-help 
part of the population, the able-bodied adults who understand 
and read English and have enough means to take care of 
themselves in the immediate impact of a disaster. That is not 
the communities we live in. Our communities are made up of 
children. They are made up of frail elderly. They are made up 
of people with disabilities. And our tendency is to look at 
those folks after we wrote the basic plan to address those 
challenges. I think if you are going to be successful in any 
scale disaster, including catastrophic, you have to design 
plans that address the needs of a community, not just those 
folks that are easy to help.
    With that, Madam Chairman, I will conclude my remarks and 
welcome questions.
    Ms. Norton. Thank you, very much.
    Mr. Fugate, now, would you describe for us your own 
background in emergency management, when it began, how it 
began, and how you rose to your present position?
    Mr. Fugate. Yes, ma'am. I started out in 1987 as a 
lieutenant with the Alachua County Fire Rescue Department. I 
was a paramedic firefighter. I was asked to come in and work on 
the county's disaster plans.
    Ms. Norton. Where was this located?
    Mr. Fugate. In Gainesville, Florida, Alachua County. I 
began working in 1987, that February, a career that took me for 
the next 10 years working at the county level as the emergency 
manager. I had several large-scale chemical incidents that we 
dealt with as well as numerous other storms and flooding 
events. But fortunately, when Hurricane Andrew hit, Alachua 
County was not directly impacted, even though we hosted 
evacuees from south Florida.
    In 1997, I was offered the opportunity go to the State and 
to serve as the bureau chief for preparedness response. I 
joined the team of the late Governor Chiles. And, again, 
looking at the lessons of Hurricane Andrew and what had 
happened to address the concerns the State had, I joined a team 
that was working hard with the Florida Legislature to continue 
to build and improve upon that. We found out in 1998 how much 
we were able to move forward in that we had over 200 days we 
were activated through wildfires, floods and Hurricane George. 
The situation was such that it was the first time on the east 
coast we actually evaluated an entire county because of 
wildfires because of the threat.
    2001, I was asked by Governor Bush to serve as the director 
of emergency management. And that October, serving in that 
capacity through the 2004 hurricane season, we had four land-
falling hurricanes. Between 2004 and 2005, we had a total of 
eight hurricanes hit the State of Florida, five of which were 
major hurricanes. In addition to that, in the immediate 
aftermath of Hurricane Katrina, at the bequest of the State of 
Mississippi, we provided the Emergency Management Assistance 
Compact and ended up deploying over 7,000 responders, and 
expending over $80 million in State funds, and providing 
everything from search and rescue teams; interoperable 
communications; food, water and ice; and just about anything 
else we could provide to those local governments at the request 
of the Governor.
    We also as a State had sent resources to the State of 
Louisiana. But we ended up, because of the proximity of the 
road systems and the fact that we had lost the I-10 bridge 
across Pontchartrain, focused in Mississippi to provide them 
assistance.
    Governor Bush stepped down, and Governor Crist was elected, 
reappointed me. One month into his administration, we had a 
tornado outbreak what 21 fatalities. This summer, or actually 
this spring, I was asked by the President to serve in his 
administration and was confirmed in May and have been serving 
as FEMA Administrator for the last 2 months.
    Ms. Norton. Mr. Fugate, I had you lay out that history 
because it is very important to this Subcommittee. It has been 
the view of this Subcommittee that, particularly for unforeseen 
disasters, but even for the run-of-the-mill disaster, at the 
Federal level, the way to respect--what your testimony 
indicates with my own opening statement about responsibility 
lying at the State is to have somebody who has been there, done 
that, and who has very deep and wide experience in emergency 
management.
    We are pleased to lay that on the record because the 
President has appointed somebody who has what appears to be 
experience in Democratic and Republican administrations, got 
appointed to his present position and to others he had in the 
State on the basis of merit. That is important for us and for 
the record to show, because I am going to ask you a question 
about this Agency, which has been a thorn in this 
Subcommittee's side, frankly, and in the side of Congress 
itself. It seemed to fall apart after Hurricane Katrina.
    Now, nobody expected somehow FEMA to rush in there like a 
knight in shining armor and rescue Louisiana, but it didn't 
seem to know which side was up; was saved by the Coast Guard, 
by people from various States such as your own; and the result 
was the post-Katrina act, and even now, pending legislation 
that would even take FEMA out of the Department of Homeland 
Security so compromised was its independence.
    The first thing I would like you to tell this Committee is 
about the independence of the Agency within the Department of 
Homeland Security. The perhaps major criticism was that while 
FEMA was a nimble Agency before that got on the ground quickly, 
somehow it became mired in the superstructure of the Department 
of Homeland Security, and that all decisions had to go from the 
Administrator through some newfangled bureaucracy that we 
ourselves had created in setting up the Department to the 
detriment of FEMA. Well, we left FEMA in Homeland Security, but 
we passed legislation making it clear that Homeland Security 
was not to compromise the ability of this Agency to move 
forward.
    I want some indication from you whether or not FEMA is as 
independent as anybody would expect, given the fact that it is 
still in the Department of Homeland Security? It goes to how 
the reporting goes; whether you are equipped and authorized to 
make decisions, or do you have to ask somebody several sheets 
up the bureaucracy before a decision can be made; whether it is 
in made in Washington or made in Louisiana. I need to know what 
the chain of command is in your own Agency before we get down 
to the States having to then ask you something. How independent 
is this Agency within the bureaucracy today?
    Mr. Fugate. Madam Chair, I report to the Secretary. The 
Secretary reports to the President. I serve as their 
principal----
    Ms. Norton. There are no officials between you and the 
Secretary?
    Mr. Fugate. No, ma'am. As a component I report directly to 
the Secretary.
    Ms. Norton. Is that a change?
    Mr. Fugate. Yes, ma'am. That was a direct result of the 
Post-Katrina Emergency Management Reform Act, which says the 
Administrator of FEMA reports directly to the Secretary.
    Ms. Norton. That is very important for us to know.
    Do you find in practice that that is the way, since you 
have been in the Agency, matters have been handled?
    Mr. Fugate. Pretty much so. I have direct access to the 
Secretary. We meet weekly. Of course, she has, working with her 
Deputy, branched out in some of the things we are looking at in 
the quarterly or the quadrennial review, but those are more 
functions of the Secretary assigning work tasks----
    Ms. Norton. Do you have to go to the Secretary for 
everything? You know, FEMA is given authority, pure and simple. 
We didn't change the authority of FEMA when we put FEMA in the 
Department of Homeland Security. So can you make most of the 
decisions you have to make on your own, or do you have to say 
to the Secretary, this is what I want to do, Madam Secretary; 
do I have your sign-off?
    Mr. Fugate. There are some things that, because of 
procurement or other issues, that are assigned to Secretaries 
that will go through that level, but by and large----
    Ms. Norton. Well, this being a disaster, then, procurement 
matters in a disaster, would you have sign-off, procurement 
sign-off, for matters in a disaster within your budgetary 
authority?
    Mr. Fugate. Madam Chairman, yes.
    Ms. Norton. Thank you, sir.
    We have understood that the bureaucracy has to clear some 
of your actions. That is not the case?
    Mr. Fugate. Madam Chair, Secretary Napolitano, having 
served as a Governor, obviously understands the roles and 
responsibilities we have in supporting Governors. There are 
many moving pieces within Homeland Security, but within a 
disaster itself we are able to move forward and take the 
actions we need to take.
    Ms. Norton. Virtually as if you were an independent Agency 
or not? I don't want to put words in your mouth.
    Mr. Fugate. Under my reporting relationship through the 
Secretary, we are able to perform our function.
    Ms. Norton. Report is one thing, permission is another. If 
we get into permission matters, the supersized disaster we are 
talking about will be supersized repeated.
    What is the role of the Office of Operations Coordination? 
You know, I hate these names. The average person really loses 
confidence in us once we get into the OOC. What is the Office 
of Operations Coordination? When was it created, by whom, and 
what is its function?
    Mr. Fugate. Madam Chair, I defer back to Homeland Security. 
That was created and has been a standing element prior to me 
joining DHS and FEMA. Within our center we have the National 
Response Coordination Center that we coordinate with the 
National Operations Center. Other components within DHS 
coordinate with the National Operations Center, which gives the 
Secretary visibility on a variety of issues, including things 
such as border matters, coastal issues, other activities that 
occur within the Department under her purview as the other 
components.
    Ms. Norton. Now, yes, the DHS has created this Office of 
Coordination at DHS. Now, as we look at statutory role of FEMA, 
we see conflicts with the role and many of the statutorily 
mandated functions of FEMA itself. And the Agency appears to be 
relying on--and this really does get the Committee upset, 
because it appears to be relying on these outdated 
administrative documents.
    Here are some more initials for everybody: HSPD 5. Now, 
this is exactly what we had in mind when we passed the Katrina 
Act and overruled these administrative documents. Can you 
explain, therefore, in light of the Post-Katrina Act, why HSPD 
5 is still an outstanding administrative document? And the role 
of the so-called Office of Operations Coordination in preparing 
for and responding to disasters, does it have a role and 
function? And why in the world are you relying or does the 
Agency appear to be relying on administrative documents that 
have been overruled, overruled by statute?
    Mr. Fugate. Madam Chair, as part of the executive branch, 
the President's prerogative in Executive Orders, obviously, in 
looking at those that have been issued in previous 
administrations carried forward in this administration, many of 
these are still under review. As to what the post-Katrina 
emergency management format directly speaks to, and what may be 
potentially in conflict with HSPD Number 5, or Homeland 
Security Presidential Decision Directive Number 5, I am aware 
of these issues, but I have been more focused on our role and 
responsibilities and administering our part of that program.
    Ms. Norton. I am pleased to learn that at least these 
matters are under review, because you don't want Congress twice 
revisiting. Then you get us really mad, and you lose authority, 
because we have the same problem with Principal Federal 
Officer. In fact, we have real problems with that one, because 
we did revisit that one. Apart from the Post-Katrina Act, we 
revisited it more than once because of what we had witnessed on 
the ground, red tape after Katrina.
    Now, the so-called Principal Federal Officer--everybody who 
thinks that substance matters will have to pardon me while I 
get through these bureaucratic names that they paste onto 
functions, where sometimes a function disappears or is in 
conflict with the statutory mandate. But here goes. It is 
called by DHS the Principal Federal Officer, PFO, conflicts 
directly with the statutorily created Federal Coordinating 
Officer so that something happens on the ground, no matter who 
comes, whoever is in charge stands up. This is a war when there 
is a natural disaster, just like there is a war when there is, 
in fact, a war. You got to know who is in charge. That was one 
thing Katrina taught us to clear up. These duplicative 
functions were cited as a primary cause of the failed response 
of Hurricane Katrina. That is why we have some exasperation 
concerning this officer.
    Now, I need to ask you whether DHS, in fact, seeks the 
repeal of the statutory mandate put in place to avoid 
duplication, and whether the Agency is continuing to rely on 
administrative documents that have been overruled by statute. 
And you have said that that is under review and, for that 
matter, the National Response Framework, to attempt to 
disregard these statutory provisions. We need to know now, 
because we need further clarification. When an agency simply is 
in contempt, well, we revisit it again, and we need to know 
what about these PFO and FCO--by the way, we are joined in this 
inquiry by the other Committee on which I serve. The Committee 
on Homeland Security, which has the same problem, cosigns with 
us on letters and cosponsored with us the statutory repeal. So 
could I have your answer?
    Mr. Fugate. Madam Chairman, I will have to defer some of 
that back to the Department, but as far as the FCO goes, it is 
clear to me the way the statute is written that the FCO, under 
a Stafford Act either emergency or major Presidential, is the 
person----
    Ms. Norton. Say that again, please.
    Mr. Fugate. Madam Chairman, it is my interpretation of the 
Stafford Act and post-Katrina emergency management format 
clearly states that when the President declares an emergency or 
a major Presidential disaster declaration, the Federal 
Coordinating Officer has the authority to execute the Stafford 
Act.
    Ms. Norton. Who has the authority, the Federal Coordinating 
Officer?
    Mr. Fugate. Yes, ma'am.
    Ms. Norton. So what is the Principal Federal Officer, 
highly paid official, doing on the ground, and how am I to know 
if I come from out of State who is in charge ?
    Mr. Fugate. Under a Stafford Act declaration, it will be 
the Federal Coordinating Officer who is authorized by the 
President to support the Federal response on behalf of the 
request of that Governor.
    Ms. Norton. Say that again. I am sorry.
    Mr. Fugate. The Federal Coordinating Officer, on behalf of 
the President, is authorized under the Stafford Act to 
coordinate----
    Ms. Norton. How do you make this distinction to State 
officials, to ordinary citizens on the ground, and why does 
the--if, in fact, the President of the United States has 
confidence in the Federal Coordinating Officer, why would it be 
necessary to pay somebody else to be on the ground, to report 
to the Department of Homeland Security?
    Mr. Fugate. Madam Chairwoman, I will defer back to the 
Agency. My focus is, again, under my authorities with the 
Federal Coordinating Officers as appointed by the President, 
when there is a declaration that is clear, that they have the 
authority on behalf of the President to coordinate the Federal 
response as well as administer the Stafford Stafford Act.
    Ms. Norton. After the Congress passes a statute, sir?
    Mr. Fugate. I am not disputing that. I am stating that 
under my purview, I appoint or make the recommendations of who 
the President will appoint as a Federal Coordinating Officer 
under the Stafford Act. The Principal Federal Official program 
is not something that FEMA--is not something that we 
administrate.
    Ms. Norton. Let me indicate that the Appropriations 
Committee supports our view, it would support it many times 
over now, that we don't have money to spend on another top 
layer beside the top layer that is already there. We have never 
had a satisfactory answer to why there should be two people on 
the ground, particularly after Hurricane Katrina, which gave us 
a disaster that way, and we don't intend to tolerate it any 
longer. And if we find that such an officer is funded, we will 
ask the Appropriations Committee to defund it. And we will 
expect this administration to abide by the mandate of Congress.
    I am going to go to Mr. Cao and ask if he has any questions 
before I proceed further.
    Mr. Cao. Mr. Fugate, I appreciate in your testimony that 
you mentioned teamwork, that FEMA is not actually a part of a 
team. I have noticed that after Katrina there was a lack of 
teamwork among the different Federal agencies. I am not sure 
what kind of steps you have initiated in order to better 
coordinate between your office and the other Federal offices 
and agencies.
    Mr. Fugate. Right now, Congressman, obviously my greatest 
challenge is the next disaster, working closely with our 
Federal partners such as our Department of Defense, NORTHCOM, 
working with National Guard Bureau, working with other 
elements.
    But I think some of the other part of that teamwork, 
hopefully we are starting to see some daylight in the State of 
Louisiana. We have worked with the State. Secretary Napolitano 
obviously has been there. My predecessor, the Acting 
Administrator, Nancy Ward, made some significant personnel 
changes there to begin moving forward, to begin that process 
that oftentimes was seen as a State, and the Federal Government 
and the local governments not being able to move forward.
    We have been working on our part to resolve those issues, 
to move forward, get projects committed, to move the money and 
begin that rebuilding on those projects that had been in 
dispute. We have been working aggressively to address those 
challenges.
    But I think the--part of the discussion I have heard, that 
is the state I was very much aware of, was that oftentimes in a 
large-scale disaster, catastrophic disaster, there are other 
programs besides the Stafford Act that could be brought to 
bear. It works best when it is done looking at what Stafford 
Act can do and other programs such as Community Block 
Development Grant dollars working together to address community 
issues. And I think when you go back and you say what are some 
of the lessons of Hurricane Katrina was the fact that in many 
cases we did not do a good job in looking at all of our Federal 
programs, matching those up with the needs of the community, 
and oftentimes looking at only one or two programs, and not 
really having the ability to reach out across the Federal 
family of programs that could meet those challenges or support 
the needs of those communities.
    I will give an example with children. When we look at our 
plans--and we oftentimes write plans, and we forget that 
children can be more than 20 percent of the population--but if 
you look at children issues, there is not much in the Stafford 
Act other than talking about facilities and some things that 
really get to that. And I am not sure that we are the experts 
on that.
    There are other Federal programs that every day have funds 
that go to local communities, support day care and other 
issues. We should be looking at how we partner with these 
Federal funding sources and build that team so that in the 
disaster FEMA is not having to recreate a system that already 
exists. We are part of a team that can leverage that and 
provide assistance and work with those Federal agencies that do 
this every day in the communities so we can meet the needs.
    And that is really what I think as far as building a team 
is not going back and creating a new program if we already have 
one, but making sure that we are leveraging those programs 
with--those programs that FEMA has with programs that exist 
every day, and, when disaster strikes, making sure we on the 
Federal side are working as a team to address those challenges.
    Mr. Cao. One of the biggest problems that I saw after 
Katrina is a lack of a timeline and the lack of coordination 
between the different agencies. Let us take the issue of health 
care, for example. It is one issue just to simply rebuild the 
hospitals and the clinics, but it is another issue to basically 
provide an area with housing, with economic development. All 
those issues all come into play.
    How do you see FEMA, for instance, as a partnership in that 
recovery process? And is there a better--should there be, for 
example, a point agency that possibly would have the power in 
order to coordinate and provide a timeline for the different 
Federal agencies to see who is responsible for what, when do 
they have to do it, in order to provide at least the area with 
a very clear path towards recovery?
    Mr. Fugate. Congressman, I believe so. I have often asked 
this question: What does long-term recovery look like if we are 
successful? And people can describe pieces of that. But it 
oftentimes seems to be hinged upon so many different aspects 
that I think you are right, there is no one single Federal 
agency that has all the answers.
    Knowing from the perspective of FEMA and the tools that we 
have, we obviously need to be a better partner with the rest of 
the Federal family. Whether that long-term recovery mission 
resides within FEMA or resides with another Federal agency, I 
think we all have to look at--as you pointed out, some of the 
things that have to occur to say we are moving forward is 
addressing housing. If you look at FEMA's housing programs, 
they are really shelter programs. If we don't have a long-term 
affordable housing solution at the end of 18 to 24 months, we 
end up keeping people in what should have been a much shorter 
time frame in sheltering operations that we end now 3, 4, 5 
years later.
    We still have about 2,400 folks that are in temporary 
housing units. These were really shelter programs that should 
have had an outcome that said at the end of that time frame we 
had enough affordable housing on board to make that transition 
out of that sheltering program, and when it didn't occur, we 
were still keeping people in what should have been a much 
shorter time frame. But we didn't have that follow-on.
    That, I think, is where we have to do a better job both at 
the local, State and Federal family is describing the outcome 
and then going back on the Federal side and identifying who has 
already got existing authorities, resources and capabilities. 
And then oftentimes when we look at funding mechanisms, it is 
not necessarily just funding the Stafford Act, but looking at 
the other Federal programs that would make more sense to 
provide that capability to them and that disaster response, 
that they have the programs that can actually deal with longer-
term solutions versus many of FEMA's programs, which are based 
upon a shorter-term responselike activity or rebuilding 
activities based upon damages that occurred as a direct result 
of the storm.
    Mr. Cao. I have one last question to ask you, Mr. Fugate.
    After speaking to different people, more or less, and we 
come to an agreement that the Stafford Act does not prevent 
FEMA from reaching a lump sum settlement in order to speed up 
the recovery process, I know that recent law allows for FEMA to 
initiate an arbitration process. But then the arbitration 
process, in and of itself, is a project-by-project arbitration 
which, at the same time, does not, at least in my view, speed 
up and allow the State and local municipalities the flexibility 
to coordinate the recovery process.
    Are you in the process of looking at ways that we could try 
to settle--allow a State or city agency to settle with FEMA on 
a lump sum amount and then, from there, allow the State and 
local governments the flexibility to have them initiate a 
recovery plan as they would see fit for their own communities?
    Mr. Fugate. Well, there are two options here. One is to 
design a program which looks a lot like Community Block 
Development Grants. We do an estimate, we write them a check, 
and we are done. The problem with that is, often disasters are 
so complex, we don't know enough initially and we oftentimes 
keep going back.
    I think a better option--let's take a school system; let us 
take the Jefferson Parish school system or the Orleans Parish 
school system, and instead of writing each building as a 
project, what if we wrote the district as a project or the 
campus as a project and gave them more flexibility within those 
structures?
    I think the tendency to look at every item, every building 
as a separate project work sheet is not something that 
necessarily lends itself to the flexibility that you are asking 
for.
    I have asked staff to go back and look at: Do we have the 
tools, can we with the Stafford Act and the CFR do things that 
allow us to write projects based upon a function, not 
necessarily each piece of that function?
    An example you raised was police stations and fire 
stations. We treated each of those as an individual component. 
What if we stepped back and said, let us look at Orleans Parish 
and look at the fire department for the city of New Orleans as 
a project. Do we have the ability to step back and not try to 
recreate it station-by-station because that may not be the 
need, given the change of population and the rebuilding 
schedules? It may be more important to do other things within 
the overall framework of what is impacted, what is eligible, 
and how do we move forward.
    So we are asking the questions, what is the best way to 
approach that, and then look at if we cannot get there with our 
authorities that we have under Stafford, under CFR, then that 
would warrant discussions back to look at whether Congress 
would like to provide any additional guidance to us under 
Stafford.
    Mr. Cao. Thank you very much.
    Ms. Norton. Thank you, Mr. Cao.
    With a new administration, I think it is a fair to ask, are 
you, Mr. Fugate, in light of the broad bipartisan criticisms of 
FEMA since Hurricane Katrina and even recognizing statutory 
changes and some improvements of the Agency since, would not a 
wholesale overhaul of the Agency be in order at this time to 
ensure that it is a nimble, functioning agency?
    Mr. Fugate. Madam Chairman, that is definitely the 
prerogative of Congress.
    Ms. Norton. I am talking about administrative overhaul. I 
am not talking about anything that the statute would say, do. I 
am talking about the kinds of things that Congress expected to 
happen afterwards, based on the administrative arm it had in 
place. Or do you think that administrative arm is now 
functioning to the level that is required and does not need to 
have a look at its functions in every department, every aspect 
by a new administration, so change we can believe in?
    Mr. Fugate. Madam Chair, that is what I am doing. I have 
been here 2 months. I have been able to bring a lot of folks 
back in that bring in State and local experience. I will be 
looking forward to my deputy coming on board, if the Senate 
will confirm, with recommendation of the President, so we have 
a person with city experience. We have people that have worked 
in State government, and we are building our leadership ranks 
based upon people who have actually done this, been in the 
field, and have been customers of FEMA.
    The other thing is, if you have ever seen our org chart, 
our org chart is far past any reasonable span of control and 
does not resemble what we do.
    Ms. Norton. What does it resemble?
    Mr. Fugate. It looks like a spider. Everybody reports to 
the boss and nobody seems to be able to figure out what we do. 
If you looked at the org chart, I doubt anybody could 
understand what FEMA does.
    I am a firm believer that form should follow function. We 
should be organized by what we do. These are the steps that we 
are currently going through as we build that team, is to look 
at how we have been doing things and putting emphasis on 
outcomes, not process.
    The other thing we have instituted is, there is this 
tendency to think we are going to know when the next disaster 
is going to be, which we know is not true. I believe the best 
way to prove my point and to demonstrate our competencies is 
through no-notice exercises that take us to the point of 
failure and to assure ourselves that we are learning the 
lessons from previous disasters and applying them to both those 
threats we are familiar with and threats many people have never 
thought about.
    I just recently left the Space Weather Prediction Center in 
Boulder, Colorado, which deals with geomagnetic storms and 
looking at the potential impacts of a major geomagnetic storm 
across our infrastructure. These are natural hazards that 
nobody has really addressed, that are far more trouble than 
people realize.
    Ms. Norton. What could cause us more trouble again? What 
are you calling them, please?
    Mr. Fugate. We have within the National Weather Service an 
office that is in Boulder, Colorado, that does nothing but 
monitor the sun for solar flares and geomagnetic radiation. In 
certain events, those storms can be so powerful as to impact, 
whichever part of the globe is facing the sun, power outages 
across most of the United States simultaneously.
    Ms. Norton. Can you point to examples of what you mean?
    Mr. Fugate. There have been solar storms so powerful that 
across northern tiers of our country, including Canada, there 
have been power outages with damages to infrastructure.
    There is an historical record event of 1859 that if it 
occurred today would result in about a 90 percent blackout of 
the power system of whatever part of the globe is facing the 
sun when it strikes.
    Ms. Norton. How about the ice storms in the Midwest this 
past winter? Is that tantamount to a smaller version of what 
you are talking about?
    Mr. Fugate. No, ma'am. Ice storms are a feature of the 
atmosphere, that is better understood.
    The weather that occurs or what they refer to as the sun's 
activities, we currently are entering into what is called the 
next solar maximus of activity for solar flare, sun spots, and 
the potential for geomagnetic storms.
    These events, based upon our vulnerability and our 
dependency upon satellite technology for communication, 
navigation, as well as our dependency upon the power grid, are 
the type of hazards that we have to expose to team, too, 
through exercises and training because, again, we know a lot 
about hurricanes, we don't know a lot about when the next 
disaster is going to strike and when it is going to strike. We 
will get there by doing exercises to learn about hazards, but 
also to make sure that the team we are building within DHS, 
within the Federal family and our State and local governments, 
are faced with challenges that push us to the point where we 
are not just building a disaster response team for the things 
we are capable of, we are building it for the types of things 
that can impact this country.
    Ms. Norton. I am going to turn the questioning over to Mr. 
Diaz-Balart, but what you just described, is it as a result of 
climate change?
    Mr. Fugate. No, ma'am, this is just our sun.
    Ms. Norton. Our sun has been here all long. Why haven't we 
had this?
    Mr. Fugate. Because our technology becomes increasing more 
vulnerable as we are more dependent on satellites and 
infrastructure that is vulnerable to geomagnetic storms.
    Ms. Norton. Who is studying that, sir?
    Mr. Fugate. The National Weather Service and NOAA, as part 
of the Space Weather Prediction Center, has been doing this. It 
is one of those programs that has been up, it is not well 
known, but the impacts, definitely within the industry, are 
well known, particularly in the satellite industry.
    It is something that when we send up our satellites, we 
plan for. In fact, the space station is one of the prime 
customers because during certain radiation storms, astronauts 
have to move into a safe location on the satellite to be 
protected during the storms.
    Ms. Norton. And, of course, we have had outages that have 
taken out great parts of the United States.
    Mr. Diaz-Balart.
    Mr. Diaz-Balart. I thank you. I had to step out for a phone 
call I had to take.
    You already touched on this in general terms, but I want to 
make sure that I understand it. If Florida were to get hit by 
the great Miami hurricane again, would DHS send a PFO team to 
Florida? And would that PFO or the FCO be in charge of 
coordinating the Federal response? And would the PFO report to 
you or the Secretary of the DHS?
    Mr. Fugate. As I understand it, there would be a Federal 
coordinating officer appointed, and we would coordinate that 
response through the Stafford Act.
    As to that Federal coordinating officer, if you remember 
back to Hurricane Andrew, the President made the decision to 
appoint a Cabinet official in that capacity to be the Federal 
coordinating officer.
    So oftentimes it depends on the scale and expertise of that 
disaster as to whether or not it would be a staff member that 
is routinely designated to go out on disasters. It could be a 
regional administrator; I could find myself in that position. 
But it is the President's call as to who he appoints as Federal 
coordinating officer.
    But those authorities, under the Stafford Act and the Post-
Katrina Emergency Management Reform Act, would be vested in 
that Federal coordinating officer to manage that response and 
to serve as the point of contact with that governor in 
supporting the governor's request for assistance from the 
Federal Government.
    Mr. Diaz-Balart. I understand there are different 
circumstances that will take place. But again, let's assume 
that it is a storm, a regular storm, not quite as big, like 
maybe the 37 that you had to deal with in the last couple of 
years in Florida.
    If a PFO were sent, would the PFO report to you or the 
Secretary? And that is assuming that the PFO would be sent. And 
would there be a PFO sent? Congress has had an issue with that.
    Mr. Fugate. Congressman, under the Stafford Act and under 
the Post-Katrina Emergency Management Reform Act, it has been 
very clear that there would be a Federal coordinating officer 
who would coordinate on behalf of the Federal Government.
    The principal Federal official program does not reside 
within FEMA, so I cannot speak to that. My understanding is 
that the Federal coordinating officer would be the point of 
contact and would be the principal implementation for Stafford 
Act and would serve on behalf of the President to coordinate 
Federal assistance requests from the governor.
    Mr. Diaz-Balart. Our concern is precisely that, that there 
is a sense that it is outside of FEMA; and who is in charge? I 
understand that you think, obviously, and we believe that you 
are right about that, but I want to make sure--I guess it is 
not a decision that you will make, but I want to make sure, if 
there is a storm, and all of a sudden a PFO is sent out there, 
who is in charge?
    That is one of our concerns. I guess that is not a decision 
you would make. I want to make sure that you would be in charge 
and not somebody else from this outside group that, frankly, we 
are not even too sure what they do.
    Mr. Fugate. I report to the Secretary and I serve as the 
principal adviser to the Secretary and the President on 
emergency management.
    Congressman, you know what I did in Florida, the team we 
built; and I think that is the thing that I really want to 
focus on. And that is that the individual is less important 
than building the team. If we build a good team, I think a lot 
of these issues become secondary to our response. But if we 
don't have a good team and we are operating separate entities, 
trying to assist a State, these issues then become things that 
we will have to deal with.
    Mr. Diaz-Balart. Absolutely. And hopefully we can deal with 
them before that happens.
    Kind of in the same vein, I am trying to understand how it 
really would work. We know there are a lot of steps being taken 
to prepare for the possible resurgence of swine flu, that 
pandemic.
    So HHS is the lead for managing the medical crisis; we 
understand that. DHS is responsible for managing the 
consequences.
    Now, would DHS use FEMA's response team and regional 
offices to manage the consequences, or would DHS send a PFO 
team or various PFO teams to bypass FEMA, and would they again 
report to you as the Secretary?
    I go back to the same issue. Specifically, if that were to 
happen, how would that work?
    Mr. Fugate. If we are outside of the Stafford Act, the 
Secretary is under HSPD-5 on behalf of the President, is 
coordinating the rest of the Federal family in support of HHS 
and dealing with issues that, again, were not under Stafford 
Act declaration.
    That is a real potential here with this H1N1. If it does 
not reach the severity that would warrant a Stafford Act 
declaration, you want to have the ability--which is not vested 
in FEMA; it is vested in the Secretary--to coordinate on behalf 
of the President in those types of non-Stafford Act events.
    This goes back to other questions when you are dealing with 
things like the national party conventions or you are dealing 
with G8 summits where you don't have a disaster or a 
declaration, having that ability to provide the coordination 
across the Federal family is one of the mechanisms and one of 
the tools that exist under HSPD-5.
    Mr. Diaz-Balart. Is there anything preventing the Secretary 
from using FEMA outside of the Stafford Act? Can they use FEMA 
outside of a Stafford Act declaration?
    Mr. Fugate. Absolutely. As part of one of her components, 
we do work actively on those issues. We bring a lot of 
resources to the table. In fact, there are capabilities, when 
it is a Federal response not requiring a Stafford Act on behalf 
of a governor, where FEMA serves as a coordination role 
supporting a lead Federal agency, such as NASA, such as HHS, 
when warranted.
    But again, you look at what resources we bring to bear, how 
we apply that. And again, our primary capabilities are 
coordinating on behalf of a governor's request of the resources 
of the Federal Government, administering the Stafford Act.
    When you look at FEMA itself, our response capability, 
other than the coordination mechanisms, is limited because we 
use other Federal agencies, private sector and nonimpacted 
State and local governments, as the responders in a disaster.
    Mr. Diaz-Balart. Because of precisely that, why not use 
FEMA if FEMA is available, number one.
    Number two, I am trying to--and I am asking the questions, 
and you are obviously giving very direct answers, as you always 
do. But my concern is, we have basically two separate 
structures for managing disaster; we have FEMA and then we have 
this DHS separate structure.
    Are you going to be looking at those structures as you are 
looking at the rules and regs dealing with FEMA? Are you going 
to have the opportunity to look at those two structures and 
come up with recommendations to see, again, if there is a 
problem, how we can streamline it and make sure there is no 
confusion for State and local officials? And we know there 
already is, because we have heard that from them; I am sure you 
have heard it as well.
    Maybe on the State level, you were one of the ones giving 
some of these complaints. Are you going to have the opportunity 
to look at that, or is that something that is not something 
that you are going to be able to look at and that we need to 
continue to push the Secretary on?
    Mr. Fugate. Well, to be fair, FEMA is part of one of the 
Agencies planning for H1N1. We have been engaged. We are not 
sitting outside. We are part of that team.
    I think the second thing you need to understand is, this 
hit at the transition of the new administration coming in. The 
decision was made to go forward with a lot of the existing 
structures because, when the first wave hit, many of the team 
had yet to come on board. We were using the existing plans to 
deal with the crisis.
    I think, as we have come through that and we are looking at 
a second wave, we are continuing to examine how we are doing 
things within DHS; and I think that is a process by which the 
Secretary is very much aware of the challenges we face to 
better integrate all of our resources together.
    So to be fair, we are part of the H1N1 planning.
    Two, H1N1 struck at the very beginning of the new 
administration where they did not have many of their staff on 
board. And so they went and made a wise decision, I think, to 
utilize the existing planning documents and the concepts of 
operation. They have since been looking at how to improve those 
as we go forward.
    Planning is a process, not an outcome that you necessarily 
get done. I think we are very much working on that process of 
how to best coordinate across a variety of threats where there 
may be different agencies that have leadership roles that won't 
always fall into the purview of a Stafford Act declaration.
    Mr. Diaz-Balart. I understand that. And this may seem like 
a great logical topic for the quadrennial review of the 
Department.
    Again, as you have heard, this is something that is 
nonpartisan. Madam Chairwoman has actually gone to the point of 
writing the President. We just want to make sure that there is 
no confusion, that--there obviously is right now, because some 
State and local officials have told us there is.
    So again, if it is not something that is going to be looked 
at, and if it is something that is going to be looked at, then 
we feel--it would make me feel more at ease, but it is 
obviously something that has to be looked at to make sure that 
there is no confusion in the chain of command.
    Mr. Fugate. I understand.
    Mr. Diaz-Balart. Thank you, sir.
    Thank you, Madam Chairwoman.
    Ms. Norton. Thank you very much, Mr. Diaz-Balart.
    This is one we have hammered so much. It needs to have a 
nail put right in it so it doesn't have to be brought up again. 
I appreciate your response.
    Let me be clear. We are not objecting to anything that the 
Secretary would do in a non-Stafford Act event so long as there 
is not a Federal coordinating officer appointed. We are 
objecting--and remember who appoints the Federal coordinating 
officer; the Secretary, as far as I know. So it is in her power 
to appoint somebody who knows the difference and knows how to 
deal with being on the ground.
    It is not unusual, just not unusual in the Federal system, 
for agencies like HHS, which has very many assistant 
secretaries. These people have learned how to relate to the 
Secretary at the same time that they fulfill their statutory 
obligation.
    And the Committee is objecting to being ignored and having 
to go to the Appropriations Committee. And they say, we asked 
for it be defunded this year and our information is the 
Secretary wanted it funded, and we don't care what she gets 
funded as long as that is not a Stafford Act notion. And as 
long as she makes that caveat, we are on the same page.
    If not--a needless fight started in the last administration 
and continues in this administration. That is a lot of wasted 
time; we have too many things that we have to do.
    Among them, talking about leftovers from the last 
administration, would you give this Committee a report on one 
that sent both sides up the wall when we learned as we were 
dealing with the stimulus that there was $3.4 billion in 
outstanding disputes between the State of Louisiana and FEMA, 
led to an outsized response from the Senator from Louisiana to 
have the President appoint arbitrators. That is how bad it had 
become.
    We were very embarrassed by it, frankly, when most 
jurisdictions were begging for the kind of money that--FEMA had 
not even gotten to the appeal. The problem was at the point of 
decision, and nobody had sat down to look at the various ways 
that the Federal Government and others have solved such 
disputes.
    So we would like to know, what is the status of the $3.4 
billion dispute? Has any of it been disbursed and how much is 
left of that amount at this time?
    Mr. Fugate. Madam Chair, I can give you some of those 
numbers; and some of those numbers I would like the staff to 
update, because it is an evolving process.
    I asked the same question when I was originally briefed on 
the $3.4 billion outstanding by the State of Louisiana. I 
asked, what exactly are these projects?
    They said, this probably is more based upon their concern 
that current projects being written will end up being appealed.
    I asked, how much is being appealed right now?
    That number is roughly half a billion that is actually in 
the appeal process.
    Many of those are working through the system through a 
group that we set up with the State of Louisiana, that were 
very senior policy, very experienced at looking at the Stafford 
Act; and many of those are now being sent back down to the 
staff with guidance to move forward on.
    But the $3.4 billion in asking for--show me which projects 
are in that process, what I have heard was that this was based 
upon outstanding project work sheets yet to be completed, that 
the concern was there may be appeals there.
    But what we have currently in house that the State of 
Louisiana, through their local subgrantees that are appealing, 
is right at half a billion. The others may yet be to come.
    Ms. Norton. Half a billion is on appeal, at least $3 
billion is in dispute, and the notion that we would even 
discuss with FEMA things like ALJs, people who, upon agreement 
of parties for the procedures used, would then break through 
this so the State of Louisiana--and there was a similar amount, 
not as high, outstanding in Mississippi--could get on with it. 
This is one deadlock that we need to see broken right away at a 
time when the economy is on its knees everywhere, including in 
the States of Louisiana and Mississippi.
    What is being done to break the deadlock between FEMA and 
the State of Louisiana on the $3 billion still in dispute?
    Mr. Fugate. Madam Chairman, as we go through the 
outstanding projects that are being written, we have set up a 
team with the State in Baton Rouge at a very high level.
    Ms. Norton. So that team consists of the parties----
    Mr. Fugate. Of our staff and their staff who are working 
through the issues.
    Ms. Norton. As I explained to you when you paid your 
courtesy visit, each of these parties has a structural problem. 
I am going to lay this on the record so everybody knows what 
our concern is.
    This is a structural problem. Your mandate is to keep 
Louisiana, to keep Mississippi, from getting too much money. 
The mandate of the State of Louisiana and the State of 
Mississippi is to get as much money from the Federal Government 
as they can. Therein lies the deadlock. So as long as you have 
got people with a structural problem still at one another, I am 
not convinced that you will break the deadlock.
    What is your objection to having all parties agree upon a 
procedure--like, for example, several States have agreed to 
solve similar Medicaid issues involving much more money. What 
is your objection after both parties have a say, final say, as 
to what the procedure will be for getting others to break this 
deadlock, considering that you are keeping $3 billion from the 
citizens of Louisiana, and there is very little progress made 
in the 6 months since we discovered this outstanding amount, 
most of it before you came in?
    But guess what, Mr. Fugate, it is going to be your $3 
billion unless you can give us timetables for getting this $3 
billion moving through the system. And then, if we see hang-ups 
in the appeals system, then we are going to wonder why in the 
world can't the appeals be settled.
    The problem is to get money to people on the ground, to get 
it on the ground now when the State needs it more than ever you 
because of a combination of Katrina and the worst economy since 
the Great Depression. I need to know what you are doing with 
the $3 billion to break the structural impasse.
    Mr. Fugate. As I said, Madam Chair, we are working with the 
tools I have, and I am looking forward to the ability to bring 
in a panel to give final adjudication of those disputes for the 
State.
    Ms. Norton. Will that be an independent panel that both 
parties had agreed upon, sir
    Mr. Fugate. Yes, ma'am.
    Ms. Norton. Thank you very much for trying to do that.
    I think you see the structural problem. There is no way to 
argue that we can ease up on Louisiana and Mississippi a little 
bit; because we have been at this for a long time, there is no 
way for you to do that with any integrity.
    And there is no integrity for the Governors of Louisiana 
and Mississippi, to the greatest extent possible, to press you 
for every dime they can get, especially now. They want even 
more dimes than they could have gotten if they had solved that 
2 years ago when the economy was not as bad as it is today.
    We are frustrated with the Agency not seeing the structural 
defeat. We are saying, we would like in 30 days to know what 
procedure you will be using with some kind of third party with 
procedures both parties have agreed to use. If any party can't 
use it, then it is not on the table.
    With what set of actors? It is not as if we are asking FEMA 
to invent something the Federal Government has never done 
before. We are impatient because other agencies with far more 
money have found ways to break impasses rather than leave 
people without the money Congress has appropriated them, if I 
may say so, sir, years ago. Years ago. It is unconscionable.
    Within 30 days, we would like to see, what is the 
procedure? What is the name of the group or panel? When will it 
be operative? What are its benchmarks? And similarly, what are 
the appeals procedures? What are the benchmarks for the appeal 
procedure, as well?
    My impatience reflects the amount still outstanding.
    You have indeed moved us somewhat forward, because at least 
you acknowledge there is a structural problem. We could not 
even get the prior administration to acknowledge the structural 
problem. That is what sent the Senator from Louisiana to the 
President with, okay, you will set up an arbitration panel. 
Watch out for her, because the next move, she is going to give 
him a certain number of days to set up an arbitration panel.
    So we have to work this out. We can with a new 
administration and everybody intelligently understanding what 
the problem is.
    First of all, I appreciate what you said; it is just the 
kind of breaking through of a bureaucracy when you talked about 
what we are putting your staff through. People have to 
understand what the staff has to do in order to break this 
impasse. It has got to say, as we look at this structure--
which, by the way, the State may have not looked at in 
decades--we must ascertain how much of this is due to lack of 
repair and how much of this is due to storm.
    I submit to you, Administrator Fugate, that is an 
impossible task. Yes, ultimately, it is a judgment. You can put 
everything you want to on the table, but to come up with a 
figure is to come up with a proxy, an imaginary figure, a 
figure that everybody can agree upon, not a figure with a basis 
in fact. One would have to go back and do the kind of 
nitpicking, small kinds of calculations that ultimately nobody 
would have any confidence in.
    So when you say that you are bringing to the table a kind 
of different vision, that is what we are looking for the Agency 
to do, as difficult as it is, where you say, look at the 
project.
    If you could just--and you mentioned that in passing in one 
of your answers. If you could just say something further about 
that. It was very refreshing to hear, because it means when you 
see a problem, you see it may be structural. You said, wait a 
minute, let's put fresh eyes on it. Try it with a pilot 
project, but don't just keep going at it as if, if you keep 
doing the same thing the same way, you are going to get a 
different response.
    Would you just lay that out a bit, the project notion 
versus the present notion, the one that you are considering at 
least?
    Mr. Fugate. Absolutely, Madam Chair.
    I think one of the challenges that I have is, I am not 
interested in getting money down to the State, I am interested 
in what the project is.
    If you have a fire station that is destroyed by a disaster, 
the uninsured elements which are eligible under Stafford Act 
for replacement, what you are actually doing is you are 
rebuilding a fire station. The maintenance records, which may 
have been destroyed in the original disaster, and the fact that 
there is no fire station are what is going to drive the 
project. We are going to replace the fire station if that 
indeed is what the community wants.
    Ms. Norton. What do you do about the fact that the State 
may have some responsibility?
    Mr. Fugate. If that project is eligible, the State has 
their responsibility as the grantee supporting that local 
government, the subgrantee, through that grants process. But we 
should not be adding to that burden on issues that do not get 
us back to the original project which was, if the station was a 
government function and it is eligible for assistance and there 
are uninsured losses, then in this type of an event we should 
be looking at what it will take to rebuild the fire station 
versus looking for things like maintenance records which didn't 
exist because they were destroyed as part of the disaster.
    Ms. Norton. Thank you. Enough said. If you are moving in 
that direction, we would be very pleased.
    Let me ask the Ranking Member, before I go further, if he 
has any further questions?
    Mr. Diaz-Balart. Actually, thank you, Madam Chairman. I 
really don't.
    But I just do want to reemphasize, I think the President 
found the best person in the entire country for this job. And 
that is why I am so insistent on making sure that we have a 
clear line of command, and the person who knows what he is 
doing, is the right man at the right time, who is the best in 
the country, if we have, when we get hit by another 
catastrophe, we don't learn then that he doesn't have either 
the resources or the right chain of command and there is 
confusion.
    Because we do have the right person right now in that 
important Agency, as I think it is very evident just in the 
time the American people have had the opportunity to meet him.
    Ms. Norton. Thank you very much, Mr. Diaz-Balart. Certainly 
he has gotten his spurs in a part of the country that has seen 
disaster after disaster. We are seeing evidence of that 
experience in responses we are getting today.
    Let me ask you about the last war, the complex that all of 
us have to a certain extent. That is, some complaints that FEMA 
has overcompensated with fighting the last war when it sees 
another disaster before it, and that it is doing what you would 
expect it to do--kind of lean forward, try not to have happen 
what happened last time.
    But we had testimony before this Subcommittee on, for 
example--the place, I think it was Louisiana--that was drowning 
in ice. We had indeed some word that Florida had to ask the 
Secretary of Homeland Security to stop sending aid that the 
State had not asked for.
    Would you speak to us about overcompensation by FEMA? Has 
it occurred, and what would you intend to do about it while 
preparing, while leaning forward in the event of a new 
disaster?
    Mr. Fugate. Madam Chair, having been probably one of the 
folks who was very concerned about how we were approaching the 
aftermath of Hurricane Katrina--and in some cases, I think, 
supplanting the role of local and State government--there is a 
danger. Yes, the Federal Government can do more. Yes, the 
Federal Government can do a lot of it. The problem is, if 
locals and State governments are not full partners in doing 
everything they can before requesting Federal assistance, in a 
large-scale, multi-State disaster, there may not be enough if 
the only player in town is the Federal Government.
    Behind me is a lot of that team, both local and State 
government. I think to avoid this overcompensation nature, you 
have to build a team that relies and trusts upon each other to 
work effectively as a team and not second-guess or question. If 
David Maxwell, the director in Arkansas says, this is what my 
governor needs, that is what I should focus on.
    Yes, I am going to anticipate. Yes, I am going to plan 
ahead. I don't want to leave Dave Maxwell hanging if he has a 
request that I haven't though about. But I should not be 
second-guessing him and responding outside of working with him 
as a team. Team members don't do that; team members work 
together.
    We are talking. We are working as a team, so that you are 
not supplanting each other. We may be anticipating, if we see 
something coming, so when that request comes, we are not 
delayed in getting that help.
    But a real team does not second-guess and go in blindly.
    Ms. Norton. And you felt free to ask the Department not to 
send, until requested, certain resources to the State?
    Mr. Fugate. Yes, ma'am. That was, in some quarters, taken 
that I was anti-Federal. The reaction was, I think, probably--
--
    Ms. Norton. The taxpayers of the United States thank you.
    Mr. Fugate. But I was looking at it more pragmatically. 
States are going through very tough fiscal times. If the 
Federal Government is stepping up to the plate at every 
disaster, States are less and less inclined to fund those 
programs they should be funding. We will further dilute our 
capabilities of this Nation to deal with complex disasters.
    People forget that most of the resources that actually 
responded to Hurricane Katrina were not Federal resources, they 
were National Guard and local and State law enforcement, fire 
departments, paramedics and other first responders across this 
Nation.
    If we continue not to leverage the capabilities of State 
and local governments, we won't have the resources the next 
time there is a disaster, because we have built everything upon 
the Federal Government doing everything at such low levels that 
when States face those hard budget choices, it is easy to go, 
somebody else will take care of us, instead of taking the steps 
that many States do, even in the face of very adverse budgets, 
to build and maintain their capability to respond to their 
citizens, with our role supporting that, but not supplanting 
that primary responsibility the governors have in their States 
during disaster.
    We don't believe in the domino theory where each level of 
government has to fail before the next level kicks in, but we 
do believe we have to be a team and that team means, everybody 
comes into the game so play as a team, not depend upon only one 
part of the government to make sure that we can meet those 
needs when disaster strikes.
    Ms. Norton. I just have a few more questions.
    About every couple of months, the national press--all over 
the United States, you see a story on, let us call them the 
last, most vulnerable victims of Katrina who are still in 
trailers. Would you give us a status report on where we are 
with placing these last victims?
    Before you came into office, HUD testified that they had 
housing for each and every one of the victims of Katrina. 
Neither HUD nor FEMA had broken down who we were talking 
about--how close they were, whether they were disabled people, 
whether they were people waiting to build their homes, just who 
they were in the first place. And so they have them all lumped 
together by the press.
    How many are there? How many are left?
    Your predecessor, just before leaving office, promised this 
Committee nobody would be put out in the street, but of course 
eviction notices might go out. The Committee does not object to 
that. We are not saying that you should violate the Stafford 
Act and keep people receiving Federal funds in perpetuity, but 
we would like to wipe the slate clean of the last victims of 
Katrina, knowing that they are someplace that is appropriate 
for them.
    Mr. Fugate. Right now, there are approximately--a little 
under 2,400 families that are still in FEMA housing. We have 
been working aggressively----
    Ms. Norton. Most of these are trailers?
    Mr. Fugate. Some are trailers, some are mobile homes.
    -- but again, working to do case work. We were working with 
the State of Louisiana. We were able to enlist one of the other 
partners. They told me that they would like to do this as part 
of the team to help in the transition.
    But I think your point is well taken. There is an end to 
these programs. The FEMA program for shelter programs, they 
were not designed to be long term. So we have to actually make 
sure that we are doing the case work to identify that the 
resources are matched up with the needs of those families. But 
we also have to bring conclusion to that process.
    I faced this in Florida where, again, many of those 
challenges had to be worked, one on one. And in some cases, it 
literally took the final notice that there was no longer going 
to be Federal assistance for people to make the decision to 
move on versus those people who did not have that option and 
needed to be moved into other programs to provide that long-
term housing solution.
    So part of doing that case work is there is not one size 
fits all; it has to be based on where that family is. Are they 
going to get back in their home? Are they going to need other 
options?
    But there is a point where you have to have closure to what 
the options will be; and at some point where people have said, 
I refuse that assistance, we have to be able to close that 
program.
    Ms. Norton. You don't have a right under the Stafford Act 
to be where you were before, to be close to work. All of that 
brings hardship, but not hardships sufficient to keep you on 
with Federal funding forever.
    I understand from staff that you have submitted a 
breakdown, and we will look at that breakdown and continue to 
work with you.
    This large question that I pose for you--in light of your 
deep experience, we felt that we could pose this question to 
you about a catastrophe or catastrophic disaster. And I want to 
ask this question because we need to know whether the Stafford 
Act, that we have relied on since 1988--is it 20 years of 
reliance on one statute, very broadly framed, which seemed to 
encompass almost everything you can think of--whether or not in 
light of the experience after Katrina, in light of the 
experience after 9/11--terribly catastrophic even though it 
involved relatively less area and even fewer people when you 
consider Hurricane Katrina--in light of that experience you, 
Administrator Fugate, you are a deep thinker in this area.
    We don't want to be caught with the notion that nobody 
knows what a catastrophe is--and maybe we do under the statute; 
we have no opinion at this point. But we don't want people 
running to us and saying, see, we have a whole lot of people, 
too; let us count them for you. We need to get all of that 
extra help that you gave to Louisiana and Mississippi, and they 
will do it.
    You heard perhaps Representative Loebsack, gave us a whole 
new standard based on the budget of the city or, for that 
matter, the State. That is going to happen when people see 
what, in fact, we had to do in Katrina. We had to pass a post-
Katrina act; we even had to pass a bill that never got through 
the Senate-- which makes me think we may be violating the 
Stafford Act--to try to give some additional assistance to 
Louisiana and Mississippi.
    I think ultimately we did give them--and, of course, that 
happened through statute; we waived the State match. But the 
other parts of it that were in this act that didn't get passed 
came as a result of testimony from people from the area. And 
the testimony was given on the basis that we are talking about 
one-time-only Katrina stuff where you find that the residents 
or the State or the city cannot move, cannot act, because FEMA 
isn't sure what it is authorized to give in this kind of 
situation.
    So we want to ask you, should Congress begin to look toward 
describing what a catastrophe is, by definition, some kind of 
definition or guidance, whether this is warranted? Should we 
look toward the kinds of consequences and objective benchmarks 
that would guide all concerned? Does the President need 
authority that would send from the top the notion that this is 
an extraordinary event?
    Have you given any thought to that, or do you think we 
should be giving thought to it at this time?
    Mr. Fugate. Madam Chair, usually when I hear these 
discussions, having been in this for a long time, I break it 
into two things. Am I looking at cost share as to what that 
threshold should be when we go to 100 percent.
    Ms. Norton. That would only be one of the things.
    Mr. Fugate. That would be one way to look at it.
    The other way to look at it is, if we look at our system, 
we don't reward States that do more. Our cost share starts at 
25 percent State and local, no less than 75 percent Federal 
share, and we have the option to go up to 100 percent. Those 
authorities are vested under the Stafford Act; it is what 
triggers the next level. We use a per capita impact to go to 
90/10.
    Obviously, Katrina was off the scale. It made sense.
    But oftentimes I find that we don't look at it from the 
standpoint of not only the consequence but, how much more is 
the State doing with their own money that is offsetting the 
cost to the Federal Government. Yet they are only going to see 
their cost share go up when it reaches a certain per capita, or 
in a very tight, narrow part of that disaster.
    So I am looking at, how do we look at cost share not only 
when it warrants it because of the size of the disaster, but 
how do you use it as a capability of encouraging State and 
local governments to do a better job of managing disasters?
    I got asked this question a long time ago by a very wise 
man, the late Lacy Suiter, he was one of the associate 
directors of FEMA. He asked me, Craig, is there anything 
Florida couldn't do if FEMA reimbursed the State for it?
    And I said, not much. So that is part one.
    The second part is, do we wish to have only one program to 
administer in a catastrophic disaster, to take care of 
everything, in which case you need to expand the Stafford Act 
dramatically? Or do we want to look at the existing Federal 
programs that are already there, such as Community Block 
Development Grant dollars, and look at how we build a system 
that takes greater advantage of existing structures and 
existing authorities, and make a better plan to integrate 
Stafford Act and other Federal organizations--including, in 
many cases, USDA from the programs they have in the rural 
States and rural parts of States--so that rather than create 
new structures and new mechanisms in a disaster, we will look 
at what we already have.
    Ms. Norton. Would those be for, not the temporary 
assistance, but ongoing assistance?
    Mr. Fugate. Yes, ma'am. Let us take the HUD example.
    Most of what you see with the FEMA programs is very short 
term to buy us time. Yet if there is not going to be housing at 
the end of the FEMA programs, we are unable to get out of a 
temporary program. So you need to recognize early in a disaster 
that the housing that will be available at the end of the FEMA 
programs would not be sufficient to provide a long-term 
solution.
    Ms. Norton. So we hand off responsibility past the 
temporary to another Federal agency to decide what role and 
what funds are appropriate; is that what you are advocating?
    Mr. Fugate. Yes. If you approach it from the standpoint 
that you want Stafford Act to be all of these things, that 
program needs to grow, and you will create structures that 
usually won't be implemented until a disaster.
    Ms. Norton. Consider this. Suppose an administrator of FEMA 
could decide that on his own and say, at this point the 
Agriculture Department should be responsible for this or HUD 
should be responsible. Do you think we need authority within 
FEMA so there is no doubt, no bickering or exchanges about who 
really should now take over among agencies?
    Mr. Fugate. Madam Chair, before I commit that FEMA would be 
the most logical place, I think you are correct in looking at, 
in those programs that go beyond Stafford Act, that go across a 
variety of Federal agencies, should there be vested a 
coordinating role and who would be best to do that.
    When you look at what we have been charged with at FEMA in 
the long-term recovery components and doing those plans, one of 
the things that I am trying to drive is not only what does that 
look like--and I have used a very simplistic definition to make 
my point, restore the tax base to what it was or greater than 
within a 5-year period--so we start driving a process that 
looks at not just trying to get somewhere by throwing all of 
these programs and pieces together, but to define where we are 
going in such a way that local officials understand and can 
start looking at how we drive programs to reestablish a tax 
base.
    If we rebuild a fire station under the Stafford Act, but 
there is no tax base to support the operation of a department, 
have we changed the outcome?
    So it goes back to, I cannot get there if I don't have 
long-term housing solutions, which is not what the Stafford Act 
does. I can't get there if we haven't been able to rebuild a 
job base. And if we are in a transitional economy where the 
jobs that were there may not be the jobs that will be there at 
the end of the recovery, I again have not changed that outcome.
    Hurricane Andrew is a perfect example of what happened in 
Florida City and Homestead. We spent millions of dollars down 
there in recovery, trying to rebuild an economy that truly did 
not recover until the building boom pushed down to that part of 
the county. Many of those communities did not recover. The jobs 
from the Air Force base did not come back. That economy 10 
years later had not made a significant recovery until the 
county growth caught up with that infrastructure.
    Ms. Norton. Mr. Fugate, in light of this kind of futuristic 
look we are giving, we are seeing Stafford Act and non-Stafford 
Act scenarios. Of course, the Stafford Act assumes a huge 
something called a "disaster" has occurred.
    But I give you--and this is why the President may need to 
get into this--the swine flu occurred very early in the 
administration. Now I don't know for the life of me who 
bureaucratically should be in charge, but I know this much. 
They put the CDC up there because nobody wanted to hear from 
anybody else except somebody who had some expertise in flu.
    Now, your scenario might apply--logistics, who does what 
and so forth. That is one of the reasons we are looking at not 
only the Stafford Act, but for that matter, the Homeland 
Security Act. Remember, CDC comes under HHS.
    Now, technically, if it were a Stafford Act matter, FEMA 
has a huge coordinating role. But when you get into 
subsections, or whole Cabinet agencies, that is when you get 
into who should be stepping up to do something. If you get 
enough confusion, you can go up to the man in the White House 
and he will straighten it out.
    We would like to have someone, Stafford Act or not, 
depending on--going to your notion of function, what is 
happening, who the public will have confidence in, then let 
others come in to play their often very critical supportive 
roles. But somebody needs to step up.
    What happened in the swine flu episode, because the White 
House had the good sense to say, you know, swine flu, we have 
no vaccine, we have potential panic. Several agencies could be 
involved. To her credit, the Secretary stood up and restored 
confidence because she was one of the few Cabinet officers who 
had been appointed.
    But to show you how sanguine the administration was, as it 
saw how the matter was developing, it realized that 
notwithstanding the enormous credibility of the Secretary, they 
had to have somebody who understood about flu stand up.
    And then, because it was so early in the administration, 
they were still getting people through, they had to call upon a 
Bush administration official, as I recall, from the CDC, who 
did a superb job. He was a professional, and he spoke in ways 
that people could understand. That is awfully important. And he 
spoke with the background and expertise. The Secretary handed 
it off to him and everything went smoothly.
    We would expect something like that to develop perhaps with 
some sort of further guidance.
    I thank you, Mr. Fugate. We have put before you some of the 
ultimate questions facing us. We have been very pleased to hear 
how deeply you think about these matters. We think that it 
requires deep and new thinking.
    I suspect that when it comes to this cross-agency 
coordination, we probably ought to have somebody look at it 
beyond our particular agencies; and that is something that we 
want to give some thought to following this hearing, to hear 
what your thoughts might be on that notion to say that lead 
agency shall be X.
    There might be a point where even a Stafford Act matter--
look at what happened in Hurricane Katrina; in order to have 
anybody speak credibly, given how few resources were in place, 
the Commander of the Coast Guard had to stand up and speak out.
    And it may change at various points. We don't care who is 
in charge; we just care that everybody understands who is in 
charge, that there is no bickering about it, no duplication, 
and we continue to move forward. I see that kind of clean 
thinking from you and appreciate your testimony, and I look 
forward to hearing from you again.
    I will call the next panel:
    Jane Bullock, former FEMA Chief of Staff, now with Bullock 
& Haddow; Francis X. McCarthy, Federalism, Federal Elections 
and Emergency Management Section, Congressional Research 
Service; Mitchell Moss, Henry Hart Rice Professor of Urban 
Policy and Planning at NYU; Donald Dunbar, Adjutant General, 
State of Wisconsin, who is testifying today on behalf of the 
National Governors Association; David Maxwell, Vice President 
of the National Emergency Management Association; Russ Decker, 
President of the International Association of Emergency 
Managers; Joe Becker, Senior Vice President, Disaster Services, 
of American Red Cross.

 TESTIMONY OF JANE BULLOCK, PRINCIPAL, BULLOCK & HADDOW, LLC, 
   FORMER FEMA CHIEF OF STAFF; FRANCIS X. McCARTHY, ANALYST, 
CONGRESSIONAL RESEARCH SERVICE; MITCHELL MOSS, HENRY HART RICE 
 PROFESSOR OF URBAN POLICY AND PLANNING, NEW YORK UNIVERSITY; 
    DONALD P. DUNBAR, ADJUTANT GENERAL, STATE OF WISCONSIN, 
     TESTIFYING TODAY ON BEHALF OF THE NATIONAL GOVERNORS 
ASSOCIATION; DAVID MAXWELL, VICE PRESIDENT, NATIONAL EMERGENCY 
 MANAGEMENT ASSOCIATION; RUSS DECKER, PRESIDENT, INTERNATIONAL 
ASSOCIATION OF EMERGENCY MANAGERS; AND JOE BECKER, SENIOR VICE 
        PRESIDENT, DISASTER SERVICES, AMERICAN RED CROSS

    Ms. Norton. I am going to just go across as I indicated, 
starting with Ms. Jane Bullock, who was the former Chief of 
Staff, the Clinton administration.
    Ms. Bullock. Madam Chair, Ranking Member, my testimony 
today is based on my 22-year career at the Federal Emergency 
Management Agency, culminating as Chief of Staff to James Lee 
Witt during the Clinton administration; and also drawing on the 
past 8 years, where I have worked with communities and 
nonprofits in disaster management.
    Throughout the 1990s, we worked with communities to respond 
and recover from over 300 Presidential disasters. Although we 
had many significant disasters, none of them became 
catastrophes.
    The geographic scope and level of damage of these disaster 
could have made them catastrophes. For example, there was more 
infrastructure damage from the Northridge earthquake than there 
was in Hurricane Katrina. There was more geographic impact from 
Hurricane Floyd than there was in Hurricane Katrina. They were 
not catastrophes because, one, we built a strong partnership 
with State and local emergency managers; two, we had a Federal 
response plan that was agreed to by each Federal agency, 
including DOD, and executed under the direction of the FEMA 
Director; and three, we had leadership, from the President on 
down, committed to cutting red tape, being innovative, and not 
worrying about the price tag. It is within this context that I 
would like to provide some thoughts and suggestions.
    In the immediate aftermath of any disaster, what 
individuals and communities want the most is to get back to 
normal. This return to normalcy often impedes the community's 
opportunity to rebuild better, safer, and more environmentally 
and economically sound. Furthermore, inflexibility in 
regulations on the part of the Federal Government programs tend 
to reinforce returning a community to its predisaster state.
    It is in the government's best economic and social interest 
to support expeditious recovery and rebuilding of safer 
communities. But how do we do this?
    First, I would suggest that the President should have the 
flexibility to request Congress's authority to waive certain 
regulations and statutory requirements in the aftermath of a 
catastrophic disaster, such as allowing for innovation in 
application, scope and cost of the Community Disaster Loan 
program. The CDL is an essential lifeline for communities to 
continue their administrative and legal functions after a 
disaster when their tax base has been lost.
    I would also suggest allowing for waiving of match 
requirements for other programs, the assistance to individuals 
and household grants, and the hazard mitigation grant programs. 
This is obvious, as impacted States will not have the funds.
    In the context of mitigation, community leaders and the 
public are most likely to embrace mitigation in the aftermath 
of a disaster. To take advantage of the public willingness, the 
Federal Government can provide the incentive by waiving the 
cost share. In Katrina, this was not done.
    Ms. Bullock. And we all see the problems that people in 
communities are having in doing elevations of housing.
    Rapid recovery of a community's infrastructure is critical 
to economic recovery. The current public assistance program is 
cumbersome and highly bureaucratic. After the Northridge 
earthquake we expedited funding of public infrastructure to 
jump-start the recovery. A similar approach or a block grant 
approach that removes the issues of pre-existing conditions, as 
we talked about earlier, will be absolutely necessary after a 
catastrophic disaster.
    Second, Federal support for long-term recovery is confusing 
and scattered. Congress should request a Federal roadmap for 
communities as to what the Federal Government can do to help 
them recover.
    Third, I would suggest establishing a pilot program that 
would allow certain high-risk, disaster-prone communities to 
receive funding to do pre-disaster recovery plans and 
strategies, which will significantly enhance approval of 
projects and hasten an economic recovery.
    The private sector is a key to recovery. We need to break 
through the red tape to allow businesses greater access after a 
disaster, to make co-funding of projects and assets possible, 
and to provide more support to small businesses.
    We need to re-look at the approach to disaster housing. The 
DHAP program shows promise, but will it work? We don't know. 
Why not use disaster housing resources to foster innovation? 
Modular green building? Why not take advantage of successful 
nonprofit programs like Socialserve, which has State databases 
of available housing units in real time? And perhaps HUD and 
FEMA could work together to do an inventory of substandard 
housing in high-risk areas before the disaster.
    Finally, I continue to be very concerned about FEMA being a 
part of the Department of Homeland Security. I firmly believe 
that this organizational circumstance will impede its ability 
to not only respond but certainly support long-term recovery.
    I commend the Obama administration for appointing 
incredibly qualified individuals into FEMA, such as 
Administrator Fugate, Jason McNamara, Bill Carwile, Tim 
Manning, and Beth Zimmerman, and I know they will serve well. 
But their presence doesn't negate the bureaucratic issues that 
remain with FEMA and DHS.
    DHS is a law enforcement agency with a Federal top-down 
approach. FEMA, on the other hand, works in partnership with 
State and local governments and the private sector to help 
individuals, institutions, and communities become socially and 
economically stronger through effective programs of mitigation, 
preparedness, and recovery. These very divergent missions 
require a different set of capabilities and, certainly, a 
different mindset.
    The Post-Katrina Emergency Management Reform Act was 
intended to strengthen FEMA, put a fence around its 
authorities, resources, and missions. However, as has already 
been mentioned, very shortly after passage, the DHS Office of 
Operations Coordination was created and given functions that 
duplicate that of FEMA's. I would encourage the Committee to 
request that DHS explain how the DHS Office of Operations 
Coordination will function in a catastrophic disaster versus 
the FEMA operations center.
    Another area that is of concern is that there were numerous 
incidents of the DHS general counsel overruling decisions made 
by the FEMA general counsel in spite of the fact that the 
rulings were made by experienced lawyers and were based on FEMA 
laws and disaster precedent.
    Since DHS has centralized the general counsel function, 
there have been many concerns that, should a catastrophic 
disaster occur, interpretations of the law based on disaster 
precedent and the innate flexibility of the Stafford Act will 
be overruled by less-informed DHS lawyers. Consideration should 
be given to allowing the FEMA Administrator to have his or her 
own independent counsel.
    We already discussed the issue about the principal Federal 
official. I don't think that this is an issue that has been 
closed. I still believe that there is intent to use the PFO. 
And I think the Committee should continue to look to questions 
relative to that, as the issue of Katrina was who is in charge.
    Frankly, if we really want to address the issue of reducing 
bureaucracy for response and recovery in the next catastrophic 
disaster, the answer is to remove FEMA, make it an independent 
agency, re-establish a Federal response plan, not a framework, 
and create a national recovery plan.
    Hurricane Katrina was a failure of leadership at all 
levels, but in spite of that failure, FEMA's staff would have 
made decisions and taken certain actions to correct the 
problems, but they couldn't because the decision approval 
process was at DHS.
    While I recognize the Obama administration is very 
different from the previous administration and is committed to 
providing service to the American public, I still wonder and I 
am still concerned that very few things have changed and 
whether the process will work more smoothly as long as FEMA has 
to answer to the Department of Homeland Security and as long as 
the FEMA Administrator is no longer in a peer-to-peer situation 
with other Cabinet Secretaries. And this could be extremely 
important when requesting needed resources from other agencies.
    Thank you for this opportunity. I will be happy to answer 
any questions.
    Ms. Norton. Thank you very much Ms. Bullock.
    Francis McCarthy, Congressional Research Service, the 
section of Federalism, Federal Elections, and Emergency 
Management. Mr. McCarthy?
    Mr. McCarthy. Thank you, Madam Chair. Good afternoon. It is 
an honor to appear before you today.
    My work at CRS over the last 3 years and my previous 25 
years at FEMA have been in areas that are directly related to 
the issues we are discussing today.
    Several fundamental issues arise in considering how to cut 
the red tape and accelerate Federal assistance. Maybe the first 
question is the respective roles of the executive and 
legislative branches. Traditionally, both have played a key 
role.
    Obviously, the executive branch, particularly FEMA,is 
administered on behalf of the President under the Stafford Act. 
Congress has authorized that statute, particularly this 
Subcommittee, and has amended it through the years. Also, 
Congress has, both through annual and supplemental 
appropriations, funded those FEMA Stafford Act response and 
recovery programs and, in addition, has also provided funds 
through other departments and agencies to meet specific post-
disaster needs.
    Oftentimes, this process has been an effective and 
complementary inter-branch partnership to address the 
complicated problems following a large disaster event that 
overwhelms a States or several States.
    Within the context of the discussion, some have suggested 
that, for catastrophic events, the FEMA Administrator could be 
provided through legislation the discretionary authority to 
create lump sum or block grant payments as needed and other 
additional authorities, such as cost share waivers, to speed up 
the recovery process.
    Some have also argued that, while discretion to designate a 
disaster a catastrophic event could be exercised by the 
President, it might be a more reliable approach to have a 
catastrophic trigger based on the amount of estimated damage.
    The creation of a threshold dollar amount to trigger 
increased cost shares and other exceptional procedures may be a 
critical part of this debate. Current cost share thresholds are 
clear, but these standards are under pressure from States 
seeking a waiver of costs. As this Chair has pointed out, many 
States consider their disaster catastrophic at the time it is 
occurring. So, for that reason, perhaps having an actual 
trigger would help to distinguish when we are in the realm of a 
catastrophic disaster.
    An additional consideration might be that when the 
threshold for expanded assistance has been reached it could 
also trigger the President's notification to Congress of the 
use of catastrophic authorities, similar to the procedures 
currently for emergency spending. The notification could also 
serve as the vehicle to engage the Congress with potential 
funding requirements and suggested legislation that could move 
the response and recovery along.
    I have discussed some of the alternative funding proposals 
for public assistance in my written testimony. One question of 
implementation regarding block grants, for example, would be 
how to determine and ensure that the amount of block grants 
meets the needs of the affected area.
    It is important to note at this point that, while 
assistance to families and individuals and also for hazard 
mitigation grants are capped, there is no cap on the amount 
that may be spent for eligible PA projects. So, while the block 
grant is appealing, particularly for speed and clarity, it 
would also likely be an amount certain, while the PA amounts 
under section 406 can change and steadily accrue based on the 
actual repair or replacement work.
    One option might be to use the initial block grant as an 
incremental downpayment on public disaster costs. Following the 
initial block grant, the regular section 406 process could then 
be used to assure eligibility and to complete the funding.
    One other consideration I note is that all the ideas for 
upfront funding underline the need for quality damage 
assessments that can give a clear indication of the scope and 
extent of the damage. In discussion of alternative approaches 
for PA, the proposals generally assume that such options would 
be available under a catastrophic or mega-disaster. By 
investing these authorities in the executive branch beforehand, 
it arguably would permit the swiftest, most flexible action 
without the necessity of new authorities being legislated as 
the disaster event unfolds. However, providing such discretion 
to leadership might only provide the possibility of effective 
action.
    Let me just briefly summarize some of the options that I 
have mentioned in my testimony.
    Number one, provide discretion to the President within the 
Stafford Act to invoke authorities, including block granting of 
funds to State and localities to provide a more rapid and 
comprehensive recovery.
    Two, install in law a trigger that, if reached, would set 
in motion a catastrophic annex or tier of increased and more 
flexible assistance and also trigger a notification to Congress 
of potential needs in resources and authorities.
    Three, place in law a listing of Stafford Act program 
changes that would take effect for a catastrophic event, 
including cost shares for specific programs such as PA but also 
others such as other needs assistance and hazard mitigation 
assistance. Clearly define FEMA's role and that of other 
agencies and departments in State and local governments in 
long-term recovery planning and work.
    Four, direct FEMA to create a national recovery framework 
similar to the National Response Framework but with an emphasis 
on long-term recovery program needs. This framework could also 
include alternative housing scenarios when large numbers of 
residents are displaced and define the FEMA-HUD relationship in 
disaster housing.
    Consider other Department or Agency authorities that should 
also be triggered by a catastrophic event, such as the 
Community Development Block Grant program the Administrator 
mentioned.
    Continue to have Congress create a legislative recovery 
package across the government to address the unique needs of 
particular catastrophic events.
    And, finally, consider establishing in law a reporting 
framework so that all disaster spending, including but not 
limited to the Disaster Relief Fund, is captured and summarized 
for congressional review, particularly for catastrophic events.
    I appreciate the opportunity to appear before you today and 
would welcome any questions you might have.
    Ms. Norton. Thank you, Mr. McCarthy.
    Dr. Moss, Henry Hart Rice professor of urban policy and 
planning at New York University.
    Mr. Moss. Thank you, Madam Chair, and I want to thank you 
for inviting me to speak today.
    I also would like to go back to the questions you posed at 
the outset of this hearing concerning the need to 
reconceptualize what a catastrophe is and whether we have 
defined it too narrowly and how we can rethink it. And I also 
would like to address some of the remarks that I have heard 
earlier this afternoon from the Administrator of FEMA.
    Let me first say that the kinds of disasters that have been 
the basis for the Stafford Act, as you point out, originally, 
were natural disasters. And the history of disaster relief in 
this country is, in fact, focused on the capacity of the 
Federal Government to assist, as you point out, provide 
supplemental assistance to States and localities.
    But the country today faces very different risks than those 
we faced when the Stafford Act was first signed in November 23, 
1988, which, if you may remember, was over two decades ago. 
Globalization has changed the way in which we are linked to 
other countries, to other events, so that a financial collapse 
in Asia really could disrupt our own financial markets; 
problems in the harvesting of tilapia in China could impose 
enormous consequences on what we eat in the America. And, in 
fact, we have seen that our pharmaceutical and our nutrition is 
increasingly dependent upon food flowing from other places. In 
fact, over a third of all the apple juice products in this 
country come from China.
    I think we have to be aware, in fact, that disasters are no 
longer rooted in our local environment but can come from other 
places. If we didn't learn this this year with the swine flu, 
we will never learn it.
    The second point I want to make is that advances in 
information technologies have made us more dependent--and I 
think we heard this in your questioning about the risk from 
solar episodes earlier--we are more dependent upon advanced 
computer systems, thereby increasing our vulnerability to 
breakdowns in our energy systems, transportation and 
infrastructure, and communications systems.
    I want to point out that, in 2002, when a power failure 
occurred in the Northeast, it was due to a tree in Ohio which 
interrupted the power supply outside Cleveland. So the failure 
to maintain power systems in Ohio led to disruptions along the 
entire Northeast.
    Simply put, we have to understand that more and more of our 
public and private life is organized around global integrated 
digital systems. A small breakdown in one component can have 
serious and widespread consequences on the entire Nation.
    And let me point out that this is in substantial 
disagreement with the speaker from FEMA, who basically talked 
about disasters only within the context of communities. And let 
me quote his remarks. He said that, "While the impact of 
catastrophes will certainly be felt at the Federal and State 
level, the impacts have the potential to be most devastating at 
the community level." And he pointed out then, "Therefore, our 
catastrophic response strategy must be designed to quickly 
stabilize communities and calibrate it to support their timely 
recovery and return to municipal self-sufficiency." This a 
terrific point of view, but it may not be appropriate for the 
21st century.
    And, as you may remember, he then said, "The key challenge 
is to return to normalcy." I want to point out this is one of 
the greatest myths of disaster recovery. There is no return to 
normalcy. We have learned from towns like Johnstown, with its 
flooding; we have learned from September 11th; we have learned 
from Katrina, there is no return to being normal. There is a 
new normal, but it is not the old normal.
    And people who live in communities which have experienced 
disasters can tell you that it is different afterwards. They 
have experienced a catastrophe; it becomes part of the 
community, and it is different. So I think the goal of 
returning to normalcy is one that is desirable but unrealistic.
    Now, let me just point out something--two other comments in 
the time I have remaining.
    We need to recognize the changing scale of catastrophes. We 
have a lot of experience with natural disasters that disrupt a 
community, a city, a county, but we must consider the way 
catastrophic disasters threaten our national economy and 
capacity to function. In such cases, the Federal Government's 
role must go far beyond the concept of supplemental assistance 
and simply returning to normalcy. Clearly, we have to recognize 
the possibility that catastrophic disasters require much more 
than the Federal Government just bringing back a community to 
where it was beforehand.
    And I want to end with one final point here. There has been 
a great deal of attention to housing, and I do believe, as you 
point out, that the housing problems from Katrina still remain 
with us. But after a disaster, quality of the water supply is 
far more important than housing, because if there isn't 
adequate water for sewage or for drinking, then it doesn't 
matter how many good housing units you have. The same thing 
goes with energy and communications.
    So I think that the focus on HUD is a somewhat exaggerated 
one based on the Katrina experience, but not necessarily 
appropriate when you look at the way in which disasters can 
disrupt the fundamental infrastructure of a community.
    Thank you very much.
    Ms. Norton. Thank you very much, Dr. Moss.
    Adjutant General Donald Dunbar, State of Wisconsin. He is 
testifying, however, for the National Governors Association.
    Yes, sir, go ahead.
    General Dunbar. Thank you, Chairwoman Norton, Ranking 
Member Diaz-Balart, and distinguished Members of the 
Subcommittee. Thank you for the opportunity to testify before 
you today on these important issues of catastrophic planning 
and disaster preparedness.
    As the adjutant general for the State of Wisconsin, I serve 
as the commanding general for the Wisconsin Army and Air 
National Guard, with responsibility for both Federal and State 
missions. I also serve as Governor Doyle's homeland security 
advisor, Chair of the Wisconsin Homeland Security Council, and 
have responsibility for emergency management.
    I appear before you today in uniform, and I am a federally 
recognized officer. However, I appear today as a State 
official, not on Federal military orders, and am representing 
the State of Wisconsin and the National Governors Association.
    I would like to start by thanking the Committee Members for 
their leadership and support of the first responder and 
emergency management communities. I work closely with 
Wisconsin's first responder and emergency management 
communities and know that your support continues to improve our 
overall readiness at the State, tribal, and local level.
    My testimony today will briefly touch on three areas 
critical to enhancing the Nation's preparedness for a 
catastrophic incident: first, the Federal-State partnership and 
the need to clarify the role of the military; two, the role of 
Federal preparedness guidelines; and, three, the need to better 
target grant investments toward achieving and sustaining 
capabilities.
    Since becoming the adjutant general in Wisconsin, we have 
experienced many emergencies, three of which led to a Federal 
disaster declaration. I am proud of the response from our first 
responders and our emergency managers, who, under difficult 
conditions, served the people of Wisconsin very well. These are 
truly heroes who are committed to something larger than 
themselves.
    I am also proud to report that the Wisconsin National Guard 
was able to assist in these emergencies. As you know, the 
National Guard is not a first responder, but it is a first 
military responder for emergencies that exceed the capacity of 
local jurisdictions and require State support for the incident 
commander.
    In keeping with our national and State guidelines, when the 
National Guard is called to support civil authorities, we 
respond through the emergency management framework and we 
support the incident commander.
    Several times in the past few years, the Department of 
Defense has attempted to amend existing law to allow for 
mobilization of Federal Reserve forces in support of domestic 
emergencies. Each time, including most recently this year's 
defense authorization deliberation, the Nation's Governors and 
their adjutants general have opposed this legislative change. 
The opposition is centered on the issue of tactical control of 
military forces when responding to an emergency under Governor 
control.
    The National Governors Association and the Adjutants 
General Association of the United States believe that tactical 
control should remain under the Governor and support the 
incident commander. This should occur unless and until the 
emergency is so severe that the Federal Government must take 
control. We believe these situations exist but are at the 
extremely severe end of the emergency continuum. We believe 
that this is necessary to ensure unity of effort and is 
consistent with national guidance issued by the Federal 
Government.
    Secondly, turning to the Federal preparedness guidelines, I 
can share with you that Wisconsin finds them critical in 
guiding our overall preparedness planning. Wisconsin recently 
updated our homeland security strategy, which represents a 
collaborative interagency effort. It is our vision to foster a 
culture of preparedness and continually improve our 
capabilities to ensure resiliency at every level in the event 
of an emergency, with "resiliency" being the ability of 
citizens, family, and communities to successfully cope with and 
recover from an emergency, whether natural or manmade.
    Our strategy specifies nine priorities with many goals and 
subgoals, to which we apply an analytical framework which seeks 
to measure our continual progress. Our strategy, based in part 
on Federal guidelines, will guide our investment of State 
appropriations and Federal grant allocations. This will allow 
Wisconsin to vertically integrate its homeland security 
efforts, measure improvement, and prioritize our investment 
justification in what is sure to be a continuing difficult 
fiscal environment.
    Lastly, Wisconsin is developing metrics to support our 
strategy and measure our progress. For this, we rely on the 
Federal Government to define and articulate the target 
capabilities list to guide our analytics. It is our belief that 
these national capabilities, developed at the local, tribal, 
and State level, will greatly aid national and regional 
preparedness. It will also help identify gaps in local and 
State capability that, if needed, will require regional and 
Federal assistance.
    The Department of Homeland Security has signaled that 
future Federal grant awards may consider existing capabilities 
and capability-based planning in the investment justification. 
If so, this may significantly increase preparedness if clearly 
understood and executed consistently. In my view, to be 
successful, grant guidance must focus on capabilities but allow 
for full development and sustainment. Too often in the past, 
guidance has changed from year to year and thwarted efforts to 
develop capability fully.
    Thank you again for this opportunity, and I look forward to 
your questions.
    Ms. Norton. Thank you very much, General Dunbar. And may I 
thank you for your service, as well.
    David Maxwell, vice president of the National Emergency 
Management Association.
    Mr. Maxwell. Thank you, Chairwoman Norton, Ranking Member 
Diaz-Balart, and distinguished Members of the Subcommittee, for 
inviting me to appear before you today.
    I am David Maxwell, director and homeland security advisor 
with the Arkansas Department of Emergency Management. I am 
testifying today on behalf of the National Emergency Management 
Association.
    The definition of "catastrophic disaster" is an issue that 
NEMA has been discussing since Hurricane Katrina devastated the 
Gulf Coast in 2005. The challenge lies in the fact that what 
constitutes a catastrophic disaster in one State or community 
may not be catastrophic in another.
    There is no question that Hurricane Katrina was a 
catastrophic disaster for those States and communities that 
experienced it. Similarly, should an earthquake occur on the 
New Madrid Fault Zone, it be would catastrophic for an entire 
region, perhaps the entire Nation. These types of events are of 
such scale and complexity that they require additional response 
and recovery efforts than we have seen in the past.
    The Stafford Act was written broadly so as to allow 
presidential discretion and flexibility. NEMA believes that 
unnecessarily strict and narrow interpretations of the law are 
more problematic than the law itself. FEMA policies and 
regulations are overly restrictive and don't reflect the 
original intent of the Stafford Act.
    Further, decisions by FEMA personnel in the field are often 
inconsistent between States and regions. As field personnel 
changes, previous decisions are frequently overturned.
    The FEMA appeals process takes months and sometimes years. 
These problems are due to subjective interpretations of the 
Stafford Act, which end up costing State and local governments 
precious time and resources for community restoration. The 
opinions of attorneys and auditors seem to take precedent over 
the intended discretion and flexibility that Congress provided 
through the Stafford Act.
    All of these issues combined serve to create a Federal 
bureaucracy that can paralyze large-scale disaster response and 
recovery.
    NEMA recently established a working group to consider if 
changes are needed to the Stafford Act or whether issues can be 
addressed through regulation or policy. Our work has just begun 
so I am not in a position to share specific recommendations 
with you today, but we commit to sharing our work with you in 
the near future.
    I am confident in stating that NEMA strongly believes that 
the Federal Government is not fully utilizing the power of the 
Stafford Act. In the words of one of my colleagues, if it is 
legal, moral, ethical, and the right thing to do to help 
disaster victims, we should do it.
    Arkansas has benefited from the FEMA Catastrophic Planning 
Initiative as we prepare for the possibility of a New Madrid 
earthquake. The challenge in catastrophic planning is that 
there is little experience to draw from, certainly with regard 
to a New Madrid earthquake. In Arkansas, we think we know how 
the roads, bridges, and other infrastructure will perform in a 
New Madrid event, but we are not 100 percent certain, so our 
plans have to remain flexible.
    Despite these limitations, and perhaps because of them, I 
would encourage Congress to continue to support and fund FEMA's 
Catastrophic Planning Initiative. The national-level exercise 
in 2011 will be focused on a New Madrid earthquake and will be 
the first natural disaster scenario in the history of the 
national-level exercises.
    NEMA is extremely supportive of the new leadership at FEMA. 
This team, led by Administrator Fugate, is made up of 
experienced, professional emergency managers who are innovators 
and have a vision for a world-class emergency management 
system.
    Now is the time to redefine the outcome we want in large-
scale disaster response and recovery and to align legislation 
and policy to support that outcome. We must also do a better 
job of leveraging all of the resources available to us in 
catastrophic disaster response and recovery, including the 
public and private sector. Government can't be solely 
responsible for recovery, nor should it be.
    In most situations, government does a very good job at 
disaster response, but the current approach to long-term 
disaster recovery is ad hoc at best. While each disaster is 
unique, it would be extremely helpful for State and local 
officials to know in advance the types of assistance that may 
be available to them for long-term recovery. In addition, 
having a Federal counterpart that would help them access and 
leverage the various Federal programs would be helpful. This is 
an ideal role for FEMA. NEMA would recommend the development of 
a full-spectrum disaster response and restoration capability, 
and I have included several suggestions in my written 
testimony.
    The main point I would like to make today is that we need 
not be confined to outdated systems and approaches to disaster 
response and recovery, particularly for large-scale events. We 
should define the outcomes that we want, build and resource the 
system that supports that outcome, build the team that can 
manage the event, and provide leaders with the discretion and 
flexibility to ensure a successful outcome.
    Thank you for the opportunity to present testimony before 
the Subcommittee, and thank you for your strong support for 
emergency management.
    Ms. Norton. Thank you so much, Mr. Maxwell.
    Russ Decker, president of the International Association of 
Emergency Managers.
    Mr. Decker?
    Mr. Decker. Thank you, Madam Chair and Ranking Member. I am 
Russ Decker, the Director of Emergency Management and Homeland 
Security for Allen County, Ohio.
    I am currently the president of the U.S. Council of the 
International Association of Emergency Managers. I have 19 
years of emergency management experience, with the last 11 as a 
local director. IAEM's membership of over 4,000 State, local, 
tribal, military, college, private and nonprofit sector members 
makes IAEM the Nation's largest association of emergency 
management professionals.
    The basic question asked by this hearing is what needs to 
be done to reduce the bureaucracy and ensure rapid response to 
catastrophes? We were also asked to review current authorities 
and suggest necessary changes to the Federal Government's 
response and recovery efforts to a disaster.
    Defining a "catastrophe" by a specific numerical trigger is 
very difficult. In a large event, the rapid mobilization of 
Federal assets is imperative, but those same resources must 
respect the civilian chain of command in the jurisdictions in 
which they are mobilized.
    Given the difficulty of defining a catastrophe, we believe 
that caution is in order when considering modifications to 
laws, policies, and authorities. We would urge caution in 
making statutory changes which enhance the role of the Federal 
Government, including the military, at the expense of the 
authority and responsibility of State and local governments, 
even in what some would describe as a catastrophic event.
    IAEM consistently stresses the key to effective management 
of any major event is the rebuilding of the essential emergency 
management system within the United States. This system 
rebuilding must include the restoration of resources, 
personnel, and authorities of emergency management agencies at 
all levels of government. Without such a collaborative, 
coordinated, and comprehensive system, we will not have the 
ability to act decisively and with sufficient flexibility to 
deal with any crisis.
    The stronger the State and local emergency management 
programs are, the less assistance that we will need from the 
Federal Government. We ask that the current FEMA administration 
be given the authority and the resources to do their job. And 
we urge that the upcoming FEMA regional administrator 
appointments consider experienced State and local emergency 
managers as candidates for those jobs.
    What is needed most in any disaster, and especially in a 
catastrophic event, is flexibility of action and speed in 
decision-making. We do not need duplication of responsibilities 
and confusion over the chain of command.
    The activities of the Office of Operations Coordination, 
currently in DHS, need to be examined, as they currently 
duplicate functions rightfully performed by FEMA as assigned, 
by the Post-Katrina Emergency Management Reform Act. And we 
continue to remain opposed to the appointment of a Principal 
Federal Official and strongly support and applaud the 
prohibition included by the House in the fiscal year 2010 
appropriations bill.
    We recommend that this Committee task FEMA to perform a 
study of their workforce to ensure that they have the necessary 
human capital to perform their assigned responsibilities. And 
we think FEMA should undertake an immediate review of their 
policies and procedures with an eye toward eliminating any 
bureaucratic hurdles. After that review, there should be a 
discussion of what additional legislative authority may be 
needed.
    If changes in authority are needed, we recommend that they 
be placed within the existing Stafford Act to maintain vital 
continuity of existing efforts. Some possible legislative 
suggestions would be to allow a change or waiver of the 
statutory 25 percent cost share for the FEMA Individual 
Assistance Program for needs other than housing, and the Hazard 
Mitigation Grant Program, and increasing the $5 million cap on 
the Community Disaster Loan Program.
    On the policy front, the project worksheet system of the 
public assistance program is too cumbersome. Having checkers 
check the checkers over and over again and then having a new 
official say it needs to be redone is simply frustrating to our 
members. Perhaps FEMA needs to take another look at estimating 
and providing block grants.
    Host areas need to be treated differently than they are 
now. In fact, the Dallas County, Texas, emergency manager 
advised me that Dallas and other jurisdictions have not yet 
received full reimbursement for their expenses in hosting other 
communities during Hurricanes Gustav and Ike. The ability to 
host future evacuees might be impacted by this lack of timely 
reimbursement.
    We join FEMA Administrator Craig Fugate in recognizing the 
importance of personal preparedness, and we want to create a 
nation of disaster survivors, not disaster victims. In addition 
to people helping people, the recovery of small businesses is 
also vital to the recovery of a community, and they, too, need 
to plan.
    We thank you for this opportunity, and we look forward to 
your questions.
    Ms. Norton. Thank you very much, Mr. Decker.
    Finally, Joe Becker, senior vice president, Disaster 
Services, American Red Cross.
    Welcome, Mr. Becker.
    Mr. Becker. Thank you very much, Madam Chairwoman. Thank 
you for holding this hearing on this important matter, and I 
appreciate your inviting our participation.
    There has been a lot of discussion this afternoon about the 
certainty of the next catastrophic event. I thought it might be 
helpful to quantify some of the human need that would result 
from what we have imagined can happen.
    Not even counting manmade events, just within the 
earthquake and hurricane scenarios, we know of scenarios in 
this country that would be four times the size of Katrina, five 
times the size of Katrina, and possibly larger. That is based 
on the human need that earthquake and hurricane scenarios would 
present to us. Clearly, as a country, we are not ready for 
scales of this size of an event.
    We have had a lot of conversation this afternoon about the 
types of issues or the range of issues. I would like to confine 
my comments to what the rest of the panel has not discussed, 
and that is to go back to the housing and human service side. 
We are the Red Cross. We care for people, we feed people, we 
shelter people. I will confine my comments to those areas.
    We are discussing particularly the long-range recovery 
housing issues, not the immediate sheltering issues, even 
though that is what the Red Cross typically focuses on early in 
a disaster.
    There has been a lot of conversation about quantifying or 
coming up with a definition of a catastrophe. I would suggest 
that, for a practitioner who works with government but isn't 
part of government, as scale of disaster increases, you 
typically layer on more: You open up more shelters, you clear 
more roads, you increase your supply chains by a certain 
magnitude. A catastrophe is a disaster in which more of the 
same doesn't get you where you need to go. A catastrophe is a 
disaster where the scale is such that the normal business 
methods won't work. And that is what we have experienced a 
couple of times now, and what we have seen, and what we have 
learned from.
    Starting with housing, we all know the scenario: You have 
people who leave the affected area and have no options for 
housing back in the affected area. The result is they evacuate 
over great distances and they can't come home. They can't come 
back to their jobs. They can't come back to their communities. 
They are evacuated and end up becoming residents of other areas 
for much longer than anyone had imagined.
    And I have heard a lot of questions this afternoon about, 
what is the answer to that? And I would suggest, please, to 
this panel or this Subcommittee: There is no one answer to 
that.
    We need the infrastructure, obviously the utilities, and 
then we need a range of housing options within the affected 
area, not just more mobile homes. Yes, the addition of HUD 
housing stock has helped in the recent disasters; the 
additional use of rental assistance has been very helpful. But 
if you do the math, the sum of all of the options that we have 
in our toolkit today is not big enough. No one option is the 
answer. The answer is to maximize each of the options, to 
develop new options. And a great deal of work is being done in 
the States and local governments in this regard.
    Maximizing options, develop new options--and then housing 
isn't something that FEMA should do without the cooperation of 
a State or a community. Housing decisions are best made locally 
from the range of options that is developed with and by FEMA. 
We need the research work done. We need prototypes developed. 
We need contracts let.
    And then we need to let State and local Governments, with 
their housing task forces that need to be stood up, work with 
FEMA's housing task force to arrive at the right local 
solutions. And, as you know, the urban solutions, where land is 
scarce, are very different from the rural solutions, where 
distances matter greatly. I would suggest that the National 
Disaster Housing Task Force that has been stood up to be the 
local focal point of this work needs your support and needs to 
be energized and needs to move more quickly.
    Also--and I think we heard the Administrator speak to 
this--we are not constructing a response community and then 
dealing with the exceptions, the exceptions being the frail 
elderly or children or people with disabilities or people with 
medical needs or people with pets. Those are most of the people 
that we are dealing with in a lot of these disasters. They are 
not the exception to the model that we build; they are the 
model that we are building. And I think that work needs to 
continue.
    Then, lastly, in housing, we focus a lot on the buildings. 
Are the utilities in place, and are the structures in place? 
And we don't always recognize that, when we have moved people 
hundreds of miles from what used to be home, the social 
services haven't followed and government services haven't 
necessarily followed. The medical care, the daycare, the elder 
care, the wide range of needs that people have pre-disaster, 
when we relocate them great distances, are exacerbated. So we 
have to bring the services to the people. And that is where 
integrated case management really matters. And we have great 
case management pilots led by a variety of Federal agencies, 
but we don't have an integrated solution to that yet, and that 
is needed.
    I am not here today to give a laundry list of what FEMA 
needs to do. This is what our country needs to do. These are 
what the Federal agencies, the nonprofits, the for-profits, 
State and local and tribal governments need to do. I ask you to 
support this approach in this important work. And I thank you 
for your hearing today to make that happen.
    Ms. Norton. Thank you very much, Mr. Becker.
    Just to lay some of the framework for the rather large 
questions we ask, I think the general public would be amazed to 
learn--you discuss it, General Dunbar, in your testimony; some 
of the others of you may have alluded to it--that the scenario 
of focusing on a manmade event by engaging in a realtime 
exercise for the first time involving a natural disaster will 
occur.
    Perhaps some of you who have been in emergency management 
who are also at the table, Mr. Maxwell or others, can make us 
understand how, after decades of FEMA, decades beyond that a 
natural disaster, catch-as-catch-can, only, I take it, after 9/
11 did it occur to anybody that the kind of disasters we have 
to prepare for every year require some realtime exercises. I 
mean, why did this not occur before?
    We think this question will help us to understand whether 
or not any change in the statute is necessary, since we 
certainly don't think that FEMA or the Federal Government 
lacked the ability to do some kind of national-level exercise, 
that somebody has to say, "You hereby have authority to do such 
an exercise with respect to tornadoes or, actually, all 
hazards."
    Why, in your judgment--what are we, 7 years after 9/11 
even? Why is this occurring now and not before? I mean, if it 
is as clear as the nose on your face after 9/11 that such 
exercises should be done to prevent terrorists attacks, why, 
given the scale of disaster even before Katrina, was this not 
done, in your view?
    Mr. Maxwell or any of you?
    Mr. Maxwell. Madam Chair, I will take a stab at it.
    I think part of this, the national-level exercise series 
developed out of the TOPOFF series that was done----
    Ms. Norton. The what?
    Mr. Maxwell. The Top Officials exercises that were done 
that involved Cabinet-level officials, as do the national-level 
exercises.
    For a long time, the States and regions have practiced 
natural disasters, and I think we were playing catchup----
    Ms. Norton. At the direction of the Federal Government or 
on their own?
    Mr. Maxwell. Both on their own and, to some degree, with 
the Federal Government, as well.
    Ms. Norton. So perhaps, you know, the terrorist attack is 
not likely to be some kind of bomb that incinerates the United 
States, yet we had national exercises there. I still am----
    Mr. Maxwell. I think, to some degree, we were playing 
catchup on not having practiced that terrorist event. So we 
went through several scenarios on that, and now we are getting 
back to the need to do those high-level officials exercises 
with natural disasters, as well.
    Ms. Norton. It makes one question whether--so you agree 
that it wasn't a lack of authority?
    Mr. Maxwell. No, ma'am.
    Ms. Norton. And I think it is you, Mr. Decker, that 
cautions the notion that statutory changes may be necessary. We 
did look at the statute. And, you know, Congress also writes 
statutes very broadly. If you are go at dealing with something 
major, don't nitpick the authorizing statute. Give the agency 
what it needs to proceed.
    And you look at that Stafford Act, and you see as broad a 
mandate as you are going to find anywhere. And yet, over and 
over again, FEMA said, "Well, we don't think we have the 
authority to do X, Y, or Z," and exasperated the patience of 
the people on the ground.
    Are you suggesting, Mr. Decker, that changes may not be 
necessary to cope with a true catastrophic disaster, given what 
you have seen, how you saw the timidity you saw in FEMA, 
especially when you seem to somehow relate this authority, 
quote, "at the expense of the authority and responsibility of 
State and local governments," even in what some would describe 
as catastrophic events? Well, we are certainly not. We are 
suggesting, if anything, that our role is supplemental, we mean 
it to be supplemental, no matter what you call it. But you can 
call it supplemental all you want to when it comes to Katrina, 
but you heard us question $3.4 billion. We are not about to 
authorize for anybody else to do anything in any disaster we 
have seen before.
    So we are left with the agency trying to figure out how to 
resolve disputes between the two agencies, Federal and local, 
precisely because we never put anything in the statute to say 
what to do. So they are sitting there with their, you know, 
thumb in their mouths, although, under this present 
Administrator, apparently making some progress, or so he 
testified. But people on the ground are literally tearing their 
hair out.
    Now, let's assume that off the table is moving out what 
State and local government would be doing, Mr. Decker. 
Remember, Administrator Fugate testified that he told the 
Administrator recently while he was on the ground in FEMA, 
"Stop sending stuff to us we don't need." The Administrator 
said, "Yes, sir. Yes, sir." So, you know, he had the backbone 
to stand up and say, "Don't do that. You are being wasteful." 
But we saw FEMA just pour ice on the second hurricane down 
there, with people laughing at the Agency all over the place 
for fighting the last war with too much ice.
    So, assuming that we are not trying to do anything at the 
expense of local and national government and still regard the 
role of FEMA as supplemental, even in a catastrophic disaster, 
except for you are going to tell me what, would you or any of 
you believe that clarification of statutory authority is 
necessary? Or, given the broad language of the statute, should 
FEMA just hunker down and do what the statute says and it will 
all take care of itself, understanding that you have on-the-
ground experience from which to draw from now?
    Mr. Decker. Madam Chairwoman, I will take a stab at that 
one.
    I think what our members were trying to stress is that we 
view the Federal role as supplemental, and we want to make sure 
that the locals and the State don't lose that command and 
control function.
    Ms. Norton. But how would that happen? You know, do you 
really think we are just aching to throw money at States and 
localities?
    Mr. Decker. If there are going to be changes, they need to 
be within Stafford, because we believe that as long as it is a 
Stafford Act event and we have an FCO coordinating the 
activity----
    Ms. Norton. And not two people coordinating it.
    Mr. Decker. --and not this confusion about is it the PFO or 
the FCO, then I think you find the locals are much more likely 
to accept that, because that is a system we are familiar with 
and it is a system that we trust. And we believe the Stafford 
Act is broad enough that it would cover a lot of those events 
if the FCO were simply given the authority to do his or her job 
without worrying will a PFO be coming in and overtaking them.
    Ms. Norton. Well, if there was a huge catastrophe that 
struck Los Angeles, are you confident that we would be able to 
categorize it as a disaster or as a Katrina-like catastrophic 
disaster? Are you satisfied that that would happen instantly or 
in a timely fashion? Because we haven't seen anything like 
that, in our lifetime at least, on the West Coast, but 
everybody tells us it is coming.
    Mr. Decker. I think defining ``catastrophe'' is going to be 
the toughest part of this. What is catastrophic, I mean, if you 
take out the entire State of Ohio, it is certainly catastrophic 
to us, but the impact on the rest of the country is going to be 
what I think defines it as whether or not it is a catastrophe 
or a national disaster.
    Ms. Norton. Do you think you could take out the State of 
Ohio and not have an effect on----
    Mr. Decker. Well, my Governor probably wouldn't like that. 
But I am saying I think that the definition of "catastrophe" 
has to be what has a major impact on our Nation and not just 
one State or one region or one community.
    Ms. Norton. Dr. Moss?
    Mr. Moss. I just want to point out that there is a 
legislative mandate already--and Mr. McCarthy pointed this out 
in his testimony--to create a national recovery framework. And 
I think FEMA has done this with a planning framework but not 
with a recovery framework.
    Ms. Norton. And you think there needs to be a recovery 
framework?
    Mr. Moss. No, I think the legislation already exists to 
require that, but it hasn't been done yet. That has already 
been mandated. I think you might want to direct them to do it.
    Ms. Norton. And if that happened, then what?
    Mr. Moss. Well, I think you would start thinking about how 
the recovery process--and we heard, I think, very open 
testimony about the importance of flexibility, of speed. But I 
think the fact that----
    Ms. Norton. That would help define?
    Mr. Moss. It would certainly--there was an issue raised 
here, from the Red Cross I think, about the question of housing 
and of social services. But understanding what is involved in 
recovery has been one of the many flaws----
    Ms. Norton. By the numbers or by what?
    Mr. Moss. About the elements of a recovery, what it would 
take to have a recovery. And I think the point I--we have heard 
a lot of discussion about housing, but I think we also heard 
about social services and the problems you have when you decide 
to move people more than a hundred miles from their location. 
Things get much worse, in terms of what is required for 
recovery. And I think that asking FEMA to carry out what you 
have already asked them to do might be a good start.
    Ms. Norton. Might be the place to start.
    Ms. Bullock?
    Ms. Bullock. I would like to make two points.
    Number one, I think that the legislature, the beauty of the 
Stafford Act, throughout my experiences at FEMA, was that it 
did give the Agency the latitude to think outside the box and 
to do innovative programs. And we can talk about innovations 
that we engaged in, in use of the Stafford, at some later 
point. So I don't think there is necessarily a need to increase 
the authority in Stafford.
    I think the problem exists in, in terms of what 
Administrator Fugate said, narrow interpretation of regulations 
on the part of the Agency. And I think that, if they are going 
to work on that, that is something I think Congress should look 
at very carefully, because people----
    Ms. Norton. The narrow regulations, you are saying.
    Ms. Bullock. Yes, and narrow interpretation of those 
regulations.
    Ms. Norton. Yeah. And, you know, I want to question you on 
that, in particular. You know, at bottom, this is a judgment 
call. Let me tell you how Federal officials operate. They are 
afraid, with good reason, of the GAO. They are afraid of our 
Committees. And there are, excuse me, "cover your butt" 
notions. It is takes a very independent, intent-upon-doing-his-
job, strong administrator.
    And I have to tell you, as a Member of the Homeland 
Security Committee and a Member of this Committee, I think what 
we have seen in Federal bureaucrats does not give me comfort to 
believe that, regardless of the bureaucrat, the person will 
understand "go ahead." That is why we even are looking at the 
President. Somebody has to signal that it is all right, so that 
when the fingers begin to point, responsibility, we know where 
it lays.
    For example, when Mr. Fugate said, "Don't send anything 
else here," if more was needed, he would have had to step up 
and say, "I asked the Secretary not to send more resources at a 
time when I did not think they were necessary," even if it 
turns out he was wrong. We have to be risk being wrong 
sometimes.
    But I tell you, the reason I said to Mr. Decker "in light 
of existing experience," even after Katrina, we passed the 
Post-Katrina Act because--and even after the Post-Katrina Act, 
the timidity of the Federal bureaucrat was on display every 
time we had a hearing, no matter what the mandate and the rest. 
That makes us tremble a little bit, to say, who is going to 
call the shots? For example, did you speak about waiver? When 
you say, ask for a waiver, well, you know, we sometimes give 
the President authority to do things and then report to 
Congress.
    It is Dr. Moss who cites a perfect example, incident of 
national significance, that somehow they had to waive to DHS. 
What did DHS have to do with it? Nobody at DHS had any 
experience; only FEMA did. But it is generally understood that, 
yes, this incident of national significance had to be, "You got 
to do that first." Whereas before, Ms. Bullock, you know, FEMA 
used all of its expertise, said to the President, "This is X," 
he acted, and FEMA was out like lightning.
    We have gotten rid of this incident of national 
significance. We still do not have confidence that we will see 
the kind of instant action if a catastrophe, something we have 
never seen before, something of the kind Mr. Fugate talked 
about, the incoming of the sun or, yeah, Ohio--is Ohio like 
Louisiana? They don't have any oil in Ohio.
    You know, somebody has to make the call. And so, my answer 
is, if somebody has to make the call, does the statute have to 
say who should make the call? Or is there plenty in the statute 
and all you need is some backbone, which you are guaranteed to 
have, on who should make the call? We have to make a judgment 
one way or the other.
    Ms. Bullock. Well, I would argue that the statute provides 
the authority. But I think, Madam Chair, you are exactly right. 
It all comes down to leadership at the top, in the Agency, 
within--if it is going to stay in DHS--within DHS. I think we 
are naive to think that if we have a majority catastrophe, DHS 
and Secretary Napolitano is not going to want to play a major 
role in that disaster. I think we are just being naive if we 
don't look at it that way. Therefore, the Stafford statute 
maybe has to be made stronger to clearly say that the FEMA 
Administrator is in charge and maybe is a PFO.
    The other thing, just to go back to the recovery issue, if 
Congress doesn't put somebody in charge of recovery, it is 
never going to be organized. Because the agencies--during the 
1990s, we used to bring all the agencies together after a major 
disaster, like Northridge or any disaster. We would sit them in 
a room, and we would come up with an ad hoc report that would 
talk about what each Federal agency is going to do to support 
that community in the aftermath of the disaster.
    We did that because the President wanted FEMA, James Lee 
Witt and the Federal Emergency Management Agency, to take that 
coordinating role. That is not in statute anywhere. It is not 
in Stafford. I think that is something--especially in the 
aftermath of a major catastrophe, somebody has to give the 
authority to an agency.
    Ms. Norton. Well, you might--you know, a Cabinet-level 
agency. FEMA--now, here we get into real bureaucracy, friends--
FEMA is not a Cabinet-level agency. It is not like it was when 
it was independent. I gave, as an example, the swine flu. So 
somebody has to say--and the President said it, because, 
clearly, they put the CDC up front.
    Now, if, you know, there were to be an attack involving 
biological weapons, I am not sure who in the world would do 
that. But somebody would have to make that call. And, you know, 
for us to be fooling around with whoever is the lead agency, 
and FEMA--you know, you are not going to tell the Secretary of 
the XYZ what to do--you know, presents problems. That is how 
bureaucrats behave.
    That is why we are looking to see how far should we go, 
mindful of what Mr. Decker said. We are very, very reluctant to 
broaden an already broad statute or, for that matter, to pull 
it in. We just don't want to be sitting here when the next one 
occurred and nobody jumps up and acts like he knows what he is 
talking about.
    Like, for that matter, General Dunbar really complicates 
matters for us, but rightly so. Because you point out that if 
you--now, if we are dealing with the National Guard, that is 
already under the Governor. But you point out that the Defense 
Department wanted authority to call up the Reserve forces, 
under some circumstances, to assist. I don't know what you do 
with posse comitatus, but let's go down scenario. I guess, if 
we enact a statute, we enact a statute, so it happens.
    Because you are concerned, in something parallel to our PFO 
or CFO, whatever these officers are, you are concerned with the 
establishment of dual chains of command being created by having 
the Armed Forces in there. But, of course, we have a 
separation-of-powers government. And it is kind of awkward to 
think about putting the Reserve forces under a Governor. Or is 
there precedent? Could this occur? Should it occur? How should 
it be done, if we absolutely need the Reserves because the 
people on the ground need them, the National Guard isn't 
enough?
    Remember, we might not get there, because we can call in 
National Guard from all over the country. They are trained 
better than the Reserves. But if these Reserves would have some 
kind of law-enforcement-type authority of any kind and somebody 
would need to do something statutorily given existing law, 
don't you think.
    General Dunbar. Yes, ma'am, I do. And I think that the best 
place to start is probably to comply with the law from fiscal 
year 2009, which mandated a Council of Governors to tackle this 
issue. When Congress issued their rejection of the request, 
they suggested that we could best solve this issue of tactical 
control by forming this council of Governors and working with 
DOD to resolve it.
    I think that, from a doctrinal point of view, it could be 
accomplished. NORTHCOM, in their relations with Canada and 
Mexico--and I realize we are talking sovereign nations versus 
States-- but if we send forces to Canada, it is possible that 
we would put tactical control of those forces under a Canadian 
commander. If Canada sent forces to the United States, it is 
possible that they would put those forces under tactical 
control of a U.S. commander. It doesn't mean you have given up 
all authority. You could always recall those forces. And higher 
levels of control, operational control, and higher levels of 
control continue to exist.
    You mentioned the National Guard. When we deploy National 
Guard forces to other States, which is a similar parallel--I 
have done this this year alone from Wisconsin to both North 
Dakota for the floods and Kentucky for the ice storm--I give 
tactical control of those guardsmen, who, in fact, become State 
assets for the States to which we deploy them. And I certainly 
reserve the right, or Governor Doyle reserves the right, to 
recall them if needed.
    General Dunbar. But I think from a unity-of-command, unity-
of-effort point of view, the best thing to do, unless and until 
the Federal Government needs to take command because the 
emergency is so drastic, so severe-- in which case we would all 
get behind the President-- I think the best thing is to stick 
with both the State and Federal guidance, which is the lowest 
level up.
    And, from that perspective, we probably wouldn't be talking 
lots of Federal troops. We might be talking about a company of 
engineers or a small capability that could easily fit into our 
joint force headquarters in Wisconsin, or another State's joint 
force headquarters, and we would then provide those forces to 
the State Coordinating Officer, which is lined up perfectly 
under the Stafford Act.
    Ms. Norton. I am going to ask staff and I am going to ask 
any of you to look at what happens here at the inauguration. 
The State-to-State, the Guard-to-Guard does not present a 
separation-of-powers problem. It is State-to-State, and we lend 
across State lines all the time. But the armed forces of the 
United States constitutionally is under the Commander in Chief, 
and that constitutional barrier is of some interest to us. 
There are certain things you can't waive very easily.
    General Dunbar. Yes, ma'am.
    Ms. Norton. During the inauguration--and here I may not 
have all of the facts in mind, but since I represent the 
District, I was concerned that the inauguration was so big this 
time that there was, at first, the notion that the Reserves 
should be under some dual command. Apparently, it has always 
been under the D.C. National Guard, the commander of the D.C. 
National Guard. And there was some kind of swearing in--I am 
not sure what it was--but there was some kind of swearing in of 
everybody else who came in, so they were either sworn in by the 
National Guard or--it occurred, even though these were National 
Guard.
    Now, the D.C. National Guard is a little different because 
we are not a State, and therefore--but these were Reserve 
people. They were on the ground at the inauguration. And my 
recollection is that, although the D.C. National Guard is 
technically under the President, that the commander of the D.C. 
National Guard swore in these troops as something other than 
Reserve troops for purposes here that may suggest there is some 
parallel there to avoid any constitutional issue arising. 
Because I do think that if we are truly preparing for the next 
one, we better assume--assume--that you will need to go beyond 
the National Guard.
    Now, the National Guard is best trained to do this, no 
question about it, from across the country. And there are a 
whole lot of Guards. It is not that I think we would need more 
troops. I agree with you. But what we may need is specialized 
training of the kind--for example, I don't know if anyone has 
seen this movie that I saw over the weekend called "Hurt 
Locker."
    This is the movie, so far, from the Iraq war. And "Hurt 
Locker" is about a whole lot more than the kinds of 
capabilities that our bomb defusers have. These people are 
setting off bombs designed to blow up entire cities and all of 
the people with them. And I could see a "Hurt Locker" situation 
where you would want some of those DOD guys--what does the 
general ask him? "How many bombs have you defused?" "842, 
sir"--those kind of guys to help you with one of those massive 
explosives designed to go off, for example, in a subway, where 
you might say you need a little more than the very important 
and now upgraded capability of even the best of our bomb folks 
here in the country.
    So, yes, we want to look and we want to continue to receive 
your views on this, as well, because----
    General Dunbar. And, ma'am, if I could just make one----
    Ms. Norton. Please do.
    General Dunbar. I would just like to state for the record, 
state that the Reserves are, in my opinion, even though I am a 
National Guard commander, just as professionally well-trained 
as the National Guard and do a phenomenal job for the country.
    You are right about the distinction, and you mentioned the 
dual-hat command. I think that is worth discussing just for a 
second, because----
    Ms. Norton. The what?
    General Dunbar. Dual-hat command. Under the law, the 
President and the Governor can agree on one National Guard 
officer, out of a total of 32, under Title 10 command authority 
at the same time. That would allow, in effect, both of those 
chains of command to end at the same commander in the State 
response. This would avoid the separation of powers that you 
are talking about and allow us to function under the Governor's 
control through the State coordinating officer in accordance 
with the Stafford Act, if that was, in fact, what was going on.
    So that part of law already exists and was designed for 
that very outcome.
    Ms. Norton. Uh-huh.
    Mr. McCarthy, have you looked at this serious problem? This 
is the problem we have yet to confront, that it may be right up 
the line. Because we know how to deal with, you know--or we are 
beginning, finally, to deal with mass transit and the rest, 
particularly concerned with underground. We have dealt, we 
think, at least to a large extent, with planes.
    So the next disaster, if terrorists are to prove as 
prescient as they have thus far, may well not be like anything 
we have seen before, and could be so serious--it could be an 
actual terrorist attack of some kind--as to make us look, first 
and foremost, to people who have experience in that kind of 
work.
    Have you done any of the work, in all of the work you have 
done on this issue?
    Mr. McCarthy. Madam Chair, I haven't, myself, because I 
have mostly concentrated on the Stafford Act recovery programs. 
But some of my colleagues at CRS have been working in this 
area, and I could refer some of their work to you and put them 
in contact with the Committee.
    Ms. Norton. We would be most pleased to receive that. This 
is truly virgin territory.
    Finally, Mr. Becker, you have spoken about housing in 
particular, which has been the bane--really, we have had such 
concerns. Although I think Dr. Moss says, you know, there are 
other areas that are of greater importance, if you think about 
the disaster itself. The fact is that, in this country, we 
always focus on the person. And so, you know, if they have 10 
people in trailers, those are the people the press will focus 
on and, frankly, that the average American is focusing on. Even 
if your computer stuff is out, they want to know what you are 
doing to this family or this disabled person or this person who 
cannot find housing or is still in a trailer and the rest of 
it.
    The administration, after entreaty after entreaty from this 
Committee, did issue a final national disaster plan. This was 
the evening of the last business day of the last 
administration. In light of your concern with housing, do you 
believe that this plan is adequate for addressing the needs of 
a catastrophe or, for that matter, of a disaster?
    Mr. Becker. Madam Chairwoman, I would suggest that the 
details of the plan empower a task force to solve what hasn't 
been solved so far. And by that I mean, I don't think you are 
going to see specifics of a plan that would satisfy a county 
emergency manager or a State emergency manager to understand 
the framework and understand how it needs to proceed.
    What we need to do is--if the Administrator wants to 
continue with the Disaster Housing Task Force that the plan 
calls for, that needs to be staffed. It is yet to have a 
permanent head, and it has been in existence for over a year 
now. It needs to be supported, it needs to be a multi-agency, 
resourced body. It needs to have State, local, and tribal and 
nonprofit representation, although the Red Cross is on it.
    But from that, the most important body of work that that 
task force can do is to create a menu of options. It is not any 
one option that is going to be the magic bullet in a 
catastrophe; we need a menu of options.
    Joe Bruno, Commissioner Bruno in New York has done some 
great work to look at what the urban housing needs would be in 
a catastrophe hitting New York City. That is very different 
than travel trailers and mobile homes on big vacant lots. You 
need to have menus of options for him. You need to have a menu 
of options for Arkansas that might be very different from that.
    And so, this work is moving too slowly. And this task force 
needs to be resourced, it needs to be headed by a permanent 
leader, and it needs to get moving.
    Ms. Norton. Yes, because--I am going to ask Mr. McCarthy, 
who has been working on these areas.
    When we got this so-called housing plan, it looked like a 
plan in order to plan. And we were expecting a plan. And, yes, 
the differences you are talking about were not even approached. 
I don't know where FEMA is on it, but it is very scary, given 
the issue that perhaps received the highest visibility in 
recovery in Louisiana and Mississippi was housing, to think 
that we still don't have a plan.
    Mr. McCarthy?
    Mr. McCarthy. I just want to mention, I think what Mr. 
Becker is saying is correct. At this point, what you really 
need is--it was a plan for a plan. And it is my understanding 
that the task force now is working on a concept of operations 
of actually applying the plan and starting the----
    Ms. Norton. Applying what plan, sir?
    Mr. McCarthy. The disaster housing plan, to start having 
specifics for it, of how it would work----
    Ms. Norton. To make it into a plan?
    Mr. McCarthy. Yes, to make it into a plan.
    And one other point I want to point out, though: The PKEMRA 
Act did quite a few good things. And I think one of the best 
things it did was to authorize case management. And it had a 
few other things. It took the caps away from within housing, 
where you could spend the amount you needed to on repairing 
your home within the overall cap. It provided all that freedom. 
The one thing it wasn't, though, is it wasn't retroactive to 
the population affected by Katrina. And so, in some ways, I 
think that those tools would have been helpful----
    Ms. Norton. Why wasn't it? And should it have been?
    Mr. McCarthy. Well, I can't speak to why----
    Ms. Norton. Well, a disaster, you know, you only know after 
the fact. We, after the fact, waived the State match. We never 
would have done that before the fact. Some of these things--you 
know, you are not clairvoyant.
    On the other hand--who was it that suggested among you, 
maybe it was Mr. Fugate, some kind of reward incentive for 
mitigation? When I think of the way we have done mitigation, 
this whole Committee is a huge fan--Subcommittee and 
Committee--of mitigation, yet we put tiny resources into it. I 
know that is not going to be anymore. We were doing that long 
before the--those little resources long before. I don't know if 
States wait for mitigation resources from us. That is really 
waiting for Godot.
    Now, Mr. Fugate indicated some kind of reward or incentive 
system. I don't know if you looked at that.
    Mr. McCarthy. And you have done some of that. The Disaster 
Mitigation Act of 2000, one of the things it did was provide 
FEMA with authority to do cost estimates and pay on that, which 
hasn't been implemented yet after 8 years. But the other main 
thing----
    Ms. Norton. We are just trying to help people recover from 
the disaster, so that if somehow--was it in the earthquake, Ms. 
Bullock, that you spoke of that there was actual criticism 
because the rebuilding took account of the fact that there 
might be another earthquake?
    Ms. Bullock. Yes.
    Ms. Norton. And who criticized that, for goodness' sake?
    Ms. Bullock. Well, actually, it was the FEMA IG. It was an 
internal criticism.
    But what we did there and what certainly after a 
catastrophic disaster has to be considered--building codes, 
which have been mentioned, and the Committee is very 
supportive, are only for a life safety protection. In other 
words, that way the building won't fall down. What we did after 
Northridge was we worked with the hospitals, specifically the 
UCLA hospital system, to rebuild those hospital buildings for a 
continuity of operations, so if there was another earthquake, 
those building not only would still not collapse, they would be 
able to be fully functional. And, obviously, hospitals are 
things you need, absolutely critical, after any sort of 
disaster but particularly an earthquake. And it is those kinds 
of innovations that we took and ran with.
    And, you know, what Fran has talked about and what we have 
talked about with mitigation, unfortunately, State and local 
governments are so strapped post-disaster that they cannot meet 
that match. It is the last priority when it actually should be 
the first priority, because we have all sorts of evidence that 
shows that, when we do do mitigation, for every $1 invested in 
mitigation, the Federal Government saves $4 in future disaster 
costs.
    And the Congressman who talked about the flooding in Iowa, 
I would bet that the buyout program that FEMA participated in 
after the 1993 floods and then again in 1995 with the repeat 
flood probably kept so many of his homes and his constituents' 
homes from being flooded.
    We have to make an emphasis on mitigation. And it is 
unfortunate----
    Ms. Norton. But FEMA approved of the rebuilding, reinforced 
rebuilding, I take it?
    Ms. Bullock. Yes.
    Ms. Norton. You see what this does, the IG--and this is 
very interesting, because certainly--what was this, the early 
1990s? By that time, everybody was afraid of earthquakes in 
California. Was the IG looking only at cost?
    Ms. Bullock. The IG was looking at cost, and the IG was 
also looking at the regulations and that perhaps we exceeded 
our application of our own regulations. That was really the 
issue.
    The problem is, if we don't take those steps now, we are 
just going to keep putting money out over and over again. And I 
think this is a serious issue because there is a lot of strain 
on the San Andreas Fault right now. There has been a lot of 
geological work done recently, that we may be looking at a 
major earthquake in that area. And California is way ahead of 
the rest of the country relative to applying building codes and 
retrofitting, but there are still going to be huge problems.
    Ms. Norton. Well, I would like to think that today nobody 
would criticize anybody for reinforcing housing. I am not sure 
about that, but----
    Ms. Bullock. Well, the criticism didn't come from the 
Congress. And the issue is, it all comes down to money. I mean, 
the fact that----
    Ms. Norton. Well, but FEMA, you say, had approved it.
    Ms. Bullock. Yeah, FEMA had--but the fact that they didn't 
waive the hazard mitigation cost share after Katrina, when 
those homes could have been rebuilt in a much safer way----
    Ms. Norton. Yeah. And much faster.
    Ms. Bullock. --and FEMA never asked you to waive it.
    Ms. Norton. Never asked to waive. Now, this is very 
important. FEMA could protect itself by simply coming to the 
Congress and then we take the rap. I can think of no instance 
where FEMA asked us for congressional authority or authority 
even from the Committee, which we then would have had counsel 
investigate and say, you now have the--I can think of no 
instance when they asked for it. And I don't even know what 
would keep a bureaucrat from asking for it. If that doesn't 
protect them, what else could?
    Let me finally ask you, given what Mr. Becker has seen and 
what certainly those of you in emergency management have seen, 
where you would stand, given your studies, of implementing 
public assistance on the basis of estimates, whether that would 
speed recovery, whether you think FEMA would act more quickly, 
whether that would be viable in terms of the IG and all of that 
stuff that is important to keep in place?
    Mr. McCarthy. Madam Chair, I think it would be very 
helpful. That authority, as I mentioned, was passed in 2000. 
FEMA, as they were told in legislation, assembled an expert 
panel in 2002 and set up, kind of, industry standards for 
estimates. But nothing further occurred. And that authority was 
partly meant to accelerate the process----
    Ms. Norton. So here I am putting it before you. You are 
pointing out very specific authority that we gave.
    Mr. Maxwell wants to say----
    Mr. Maxwell. Yeah, I just want to express one concern with 
that. It has to be done in conjunction with a complete review 
of all of the policies within PA and how they are administered. 
Because the last thing we, as a State, want to have happen is 
get an award that is based on an estimate and then have to pay 
money back and collect money back from a sub-grantee, that 
local government, to turn money back. So we would want a very 
careful review of the policies.
    Ms. Bullock. I would just like to add----
    Ms. Norton. Ms. Bullock, yes?
    Ms. Bullock. --in the Northridge earthquake, once again, 
because of the scope of that disaster, we did do some upfront 
funding. You know, if a project came in and the State or the 
local government said it was going to be $2 million, we 
wouldn't give them the $2 million, but we would give them a 
portion so they could at least get the work started. And then 
we could do the more comprehensive----
    Ms. Norton. Wouldn't that take care of it, Mr. Maxwell? We 
are not going to throw any money out of here very quickly, but 
when people are waiting just to get started--Dr. Moss, do you 
see a problem there?
    Mr. Moss. No, I think the--I thought that there is a 
provision in housing for it to be rebuilt to higher standards. 
But in other parts of FEMA, I think the aid is to rebuild it to 
what it was. Am I correct? I think that we--some of our 
rebuilding standards mean that we cannot rebuild to what would 
be, you know, 21st-century standards. I think that is a very 
big problem, in my view, because----
    Ms. Norton. A huge problem.
    Mr. Moss. --if a building is 100 years old, we are going to 
rebuild a 100-year-old building? No.
    Ms. Bullock. But FEMA covered themselves. And that----
    Ms. Norton. You mean in the earthquake?
    Ms. Bullock. Yeah, in the earthquake. Actually, not in the 
earthquake. In any disaster after that, FEMA then would say, 
"Yes, okay, if the code takes you to this point, you can have 
additional mitigation money to take it to this other point." 
But, once again, there was not adequate funds to handle all of 
that. If you are redoing a whole school system in the city of 
the Chicago after a massive tornado, there never would be 
enough funding to use that formula.
    And that is why working with communities on building codes 
and updating building codes is so critical.
    Ms. Norton. And this is going to get to be real touchy, 
because climate change and energy conservation is a top 
priority for this Subcommittee, this Committee, and the 
Congress of the United States. Now, we have figured out, 
because industry helps us to figure out, we have real-time 
figures now about the payback. Now, that is going to confront 
us in Louisiana. If you are rebuilding, you know, Mercy 
Hospital, what kind of energy systems are you putting in? They 
are going to cost more.
    I can tell you this much, we are going to build a 
Department of Homeland Security over in Ward 8. It is going to 
be a LEED building. It may not be platinum, but it is going to 
be as close to that as we can, because we know it is going to 
be there forever, in this case, because it is a Cabinet agency. 
That should be pretty easy to figure out.
    I don't know what the life of a school is. But I do know 
today what I did not know 5 years ago, what the payback on many 
energy systems is. I don't know if we have confronted this. 
Certainly, it has not come to the Committee's attention. But 
this is the kind of thing that we have got to be prepared for. 
It would save the Federal Government money. It would save the 
State money. It costs some money in advance beyond what we 
would have paid 10 years ago. And whether that gets factored in 
or not will be an explosive question for some of us for whom 
energy conservation is a major issue today.
    Ms. Bullock. I would certainly love to see the Committee 
ask that of FEMA. Because there are huge dollars that have been 
spent rebuilding buildings that----
    Ms. Norton. We will certainly ask that of, you know, Mercy 
Hospital, would you dare, for example--that is going to be a 
healthy part of that $3 billion, to simply build it back to how 
it was, if you could ever figure that out. Given what we now 
know about energy conservation, that is the hottest spot on the 
map of the United States. It is a hospital; you are going to 
have electricity systems running, or need them running, in the 
event of an earthquake. It is going to have to override 
anything else you can think of. You are not going to move all 
of those people out again just like that. You didn't move them 
out just like that before. All of that now is experience that 
we have.
    Did any of the rest of you before--as you can see, when we 
put a big question like that, it helps us to have before us a 
full array of experts so that you can cross-pollinate one 
another, and I will let you pollinate us. Is there anything you 
want to say before we call this hearing to a close?
    Let me thank each and every one of you for very fruitful, 
very productive, and very stimulating testimony that is going 
to help us. We are going to do something. The question now 
before us, given the kind of information we are getting from 
experts at your level, what is the most we can do with the 
least possible harm?
    I say that with some meaning. We mean to do no harm. We 
have found that FEMA, left to its own devices, may do harm by 
doing nothing. And thus, we are going to need to try to be wise 
and not to simply throw down the gauntlet and offer a new 
statute to what we think was a very well-written statute in the 
first place.
    Thank you very much for coming to advise the Committee.
    The hearing is adjourned.
    [Whereupon, at 5:40 p.m., the Subcommittee was adjourned.]
    [GRAPHIC] [TIFF OMITTED] 51326.008
    
    [GRAPHIC] [TIFF OMITTED] 51326.009
    
    [GRAPHIC] [TIFF OMITTED] 51326.010
    
    [GRAPHIC] [TIFF OMITTED] 51326.011
    
    [GRAPHIC] [TIFF OMITTED] 51326.012
    
    [GRAPHIC] [TIFF OMITTED] 51326.013
    
    [GRAPHIC] [TIFF OMITTED] 51326.014
    
    [GRAPHIC] [TIFF OMITTED] 51326.015
    
    [GRAPHIC] [TIFF OMITTED] 51326.016
    
    [GRAPHIC] [TIFF OMITTED] 51326.017
    
    [GRAPHIC] [TIFF OMITTED] 51326.018
    
    [GRAPHIC] [TIFF OMITTED] 51326.019
    
    [GRAPHIC] [TIFF OMITTED] 51326.020
    
    [GRAPHIC] [TIFF OMITTED] 51326.021
    
    [GRAPHIC] [TIFF OMITTED] 51326.022
    
    [GRAPHIC] [TIFF OMITTED] 51326.023
    
    [GRAPHIC] [TIFF OMITTED] 51326.024
    
    [GRAPHIC] [TIFF OMITTED] 51326.025
    
    [GRAPHIC] [TIFF OMITTED] 51326.026
    
    [GRAPHIC] [TIFF OMITTED] 51326.027
    
    [GRAPHIC] [TIFF OMITTED] 51326.028
    
    [GRAPHIC] [TIFF OMITTED] 51326.029
    
    [GRAPHIC] [TIFF OMITTED] 51326.030
    
    [GRAPHIC] [TIFF OMITTED] 51326.031
    
    [GRAPHIC] [TIFF OMITTED] 51326.032
    
    [GRAPHIC] [TIFF OMITTED] 51326.033
    
    [GRAPHIC] [TIFF OMITTED] 51326.034
    
    [GRAPHIC] [TIFF OMITTED] 51326.035
    
    [GRAPHIC] [TIFF OMITTED] 51326.036
    
    [GRAPHIC] [TIFF OMITTED] 51326.037
    
    [GRAPHIC] [TIFF OMITTED] 51326.038
    
    [GRAPHIC] [TIFF OMITTED] 51326.039
    
    [GRAPHIC] [TIFF OMITTED] 51326.040
    
    [GRAPHIC] [TIFF OMITTED] 51326.041
    
    [GRAPHIC] [TIFF OMITTED] 51326.042
    
    [GRAPHIC] [TIFF OMITTED] 51326.043
    
    [GRAPHIC] [TIFF OMITTED] 51326.044
    
    [GRAPHIC] [TIFF OMITTED] 51326.045
    
    [GRAPHIC] [TIFF OMITTED] 51326.046
    
    [GRAPHIC] [TIFF OMITTED] 51326.047
    
    [GRAPHIC] [TIFF OMITTED] 51326.048
    
    [GRAPHIC] [TIFF OMITTED] 51326.049
    
    [GRAPHIC] [TIFF OMITTED] 51326.050
    
    [GRAPHIC] [TIFF OMITTED] 51326.051
    
    [GRAPHIC] [TIFF OMITTED] 51326.052
    
    [GRAPHIC] [TIFF OMITTED] 51326.053
    
    [GRAPHIC] [TIFF OMITTED] 51326.054
    
    [GRAPHIC] [TIFF OMITTED] 51326.055
    
    [GRAPHIC] [TIFF OMITTED] 51326.056
    
    [GRAPHIC] [TIFF OMITTED] 51326.057
    
    [GRAPHIC] [TIFF OMITTED] 51326.058
    
    [GRAPHIC] [TIFF OMITTED] 51326.059
    
    [GRAPHIC] [TIFF OMITTED] 51326.060
    
    [GRAPHIC] [TIFF OMITTED] 51326.061
    
    [GRAPHIC] [TIFF OMITTED] 51326.062
    
    [GRAPHIC] [TIFF OMITTED] 51326.063
    
    [GRAPHIC] [TIFF OMITTED] 51326.064
    
    [GRAPHIC] [TIFF OMITTED] 51326.065
    
    [GRAPHIC] [TIFF OMITTED] 51326.066
    
    [GRAPHIC] [TIFF OMITTED] 51326.067
    
    [GRAPHIC] [TIFF OMITTED] 51326.068
    
    [GRAPHIC] [TIFF OMITTED] 51326.069
    
    [GRAPHIC] [TIFF OMITTED] 51326.070
    
    [GRAPHIC] [TIFF OMITTED] 51326.071
    
    [GRAPHIC] [TIFF OMITTED] 51326.072
    
    [GRAPHIC] [TIFF OMITTED] 51326.073
    
    [GRAPHIC] [TIFF OMITTED] 51326.074
    
    [GRAPHIC] [TIFF OMITTED] 51326.075
    
    [GRAPHIC] [TIFF OMITTED] 51326.076
    
    [GRAPHIC] [TIFF OMITTED] 51326.077
    
    [GRAPHIC] [TIFF OMITTED] 51326.078
    
    [GRAPHIC] [TIFF OMITTED] 51326.079
    
    [GRAPHIC] [TIFF OMITTED] 51326.080
    
    [GRAPHIC] [TIFF OMITTED] 51326.081
    
    [GRAPHIC] [TIFF OMITTED] 51326.082
    
    [GRAPHIC] [TIFF OMITTED] 51326.083
    
    [GRAPHIC] [TIFF OMITTED] 51326.084
    
    [GRAPHIC] [TIFF OMITTED] 51326.085
    
    [GRAPHIC] [TIFF OMITTED] 51326.086
    
    [GRAPHIC] [TIFF OMITTED] 51326.087
    
    [GRAPHIC] [TIFF OMITTED] 51326.088
    
    [GRAPHIC] [TIFF OMITTED] 51326.089
    
    [GRAPHIC] [TIFF OMITTED] 51326.090
    
    [GRAPHIC] [TIFF OMITTED] 51326.091
    
    [GRAPHIC] [TIFF OMITTED] 51326.092
    
    [GRAPHIC] [TIFF OMITTED] 51326.093
    
    [GRAPHIC] [TIFF OMITTED] 51326.094
    
    [GRAPHIC] [TIFF OMITTED] 51326.095
    
    [GRAPHIC] [TIFF OMITTED] 51326.096
    
    [GRAPHIC] [TIFF OMITTED] 51326.097
    
    [GRAPHIC] [TIFF OMITTED] 51326.098
    
    [GRAPHIC] [TIFF OMITTED] 51326.099
    
    [GRAPHIC] [TIFF OMITTED] 51326.100
    
    [GRAPHIC] [TIFF OMITTED] 51326.101
    
    [GRAPHIC] [TIFF OMITTED] 51326.102
    
    [GRAPHIC] [TIFF OMITTED] 51326.103
    
    [GRAPHIC] [TIFF OMITTED] 51326.104
    
    [GRAPHIC] [TIFF OMITTED] 51326.105
    
    [GRAPHIC] [TIFF OMITTED] 51326.106
    
    [GRAPHIC] [TIFF OMITTED] 51326.107
    
    [GRAPHIC] [TIFF OMITTED] 51326.108
    
                                    

</pre></body></html>
